12497-00_Covers_rev7.qxd   5/5/11   10:01 AM   Page C1




              Office of Inspector General
              U.S. General Services Administration



              Semiannual Report
              to the Congress
              October 1, 2010 – March 31, 2011
12497-00_Covers_rev7.qxd   5/5/11   10:01 AM    Page C2




                 GSA’s SIGNIFICANT MANAGEMENT CHALLENGES
                 The Congress requested the Inspectors General of major federal agencies to report on the most sig-
                 nificant management challenges facing their respective agencies. Our strategic planning process
                 commits us to addressing these critical issues. The following table briefly describes the challenges
                 we have identified for GSA and references related work products issued by the GSA OIG and dis-
                 cussed in this semiannual report

                 CHALLENGES                    BRIEF DESCRIPTION OF CHALLENGE                                 PAGE

                 ACQUISITION                   GSA’s procurement organization awards and administers          2
                 PROGRAMS                      government-wide contracts worth $183 billion. With
                                               growing programs and shrinking numbers of qualified
                                               acquisition personnel, attention to important fundamentals
                                               such as ensuring competition, meaningful price analysis,
                                               and implementation of statutory and regulatory
                                               compliance-type requirements has diminished.

                 INFORMATION                   Technology applications have increased exponentially as        4
                 TECHNOLOGY                    “E-Gov” is used to better manage operations and interface
                                               with the public, but complex integration and security issues
                                               exist.

                 FINANCIAL                     GSA systems, including its financial system of record          5
                 REPORTING                     (Pegasys), continue to have deficiencies in interoperability
                                               and interfaces. As a consequence, GSA management
                                               continues to rely heavily on manual workarounds and
                                               significant adjusting entries to prepare the financial
                                               statements and related note disclosures.

                 PROTECTION OF                 GSA is responsible for protecting the life and safety of       6
                 FEDERAL FACILITIES            employees and public visitors in federal buildings. The
                 AND PERSONNEL                 increased risks from terrorism have greatly expanded the
                                               range of vulnerabilities. A broadly integrated security
                                               program is required.

                 GREENING                      With its major role in federal building construction and       7
                 INITIATIVE—                   operations, GSA faces challenges to lead change in
                 SUSTAINABLE                   achieving its goals for sustainability and a Zero
                 ENVIRONMENTAL                 Environmental Footprint.
                 STEWARDSHIP

                 FEDERAL                       Faced with an aging, deteriorating inventory, GSA is           No
                 BUILDINGS                     challenged in making the best use of available funds           Reports
                 FUND                          to deliver high performance workplaces on schedule             This
                                               and within budget.                                             Period

                 AMERICAN                      Mandated to obligate $5.5 billion to convert federal               8
                 RECOVERY AND                  buildings into High-Performance Green Buildings, as well
                 REINVESTMENT                  as to construct federal buildings, courthouses, and land
                 ACT OF 2009                   ports of entry within a 20-month period, shortened planning
                                               and contracting phases will likely have continual challenges
                                               on the construction phase and contract administration
                                               workload.
12497-01_FM_rev8.qxd   5/12/11   9:06 AM   Page i




                                                             Foreword



                                 On behalf of the Office of Inspector General (OIG), I am pleased to provide this report to
                                 the people of the United States and their elected representatives in Congress. This report
                                 reflects the OIG’s effectiveness in combating fraud, waste, and abuse in connection with
                                 the programs and operations of GSA on behalf of the American taxpayer. Since Fiscal
                                 Year 2007, management decisions agreeing with our audit findings and civil settlements or
                                 investigative recoveries based on OIG work have totaled over $4 billion.

                                 During this Fiscal Year 2011 reporting period, we issued 58 audit reports and identified
                                 over $173 million in funds recommended for better use and questioned costs. We also
                                 made 364 referrals for criminal prosecution, civil litigation, and administrative action. In this
                                 reporting period, management decisions agreeing with our audit findings, civil settlements,
                                 and investigative recoveries totaled almost $543 million.

                                 This year, Verizon Communications, Inc., agreed to pay the United States $93.5 million to
                                 settle allegations that it overcharged GSA by invoicing for a variety of federal, state and
                                 local taxes and surcharges in violation of its contract. Qui tam, or whistleblower, case
                                 settlements yielded $161.8 million while other False Claims Act settlements yielded
                                 $9.5 million in this reporting period.

                                 On behalf of the U.S. Attorney General’s Financial Fraud Enforcement Task Force, I
                                 reached out to both the public and private sectors as part of a collaborative effort to
                                 prevent and detect fraud in government contracts and procurement. The OIG continued
                                 work on its green initiative to better understand methods of environmental stewardship in
                                 GSA’s practices and operations. The OIG also recovered two more Works Progress
                                 Administration paintings in its effort to preserve these national historical treasures. A
                                 documentary about our efforts to obtain the lost artwork won a Telly Award.

                                 I want to express my appreciation for the accomplishments of all the OIG employees who
                                 continue to show a dedication to effective public service. I also recognize the continued
                                 strong support of Congress, OMB, and employees throughout GSA.




                                 Brian D. Miller
                                 Inspector General
                                 March 31, 2011




                                                                                                October 1, 2010 – March 31, 2011 i
12497-01_FM_rev8.qxd   5/12/11   9:06 AM   Page ii
12497-01_FM_rev8.qxd   5/12/11   9:06 AM   Page iii




                                                         Table of Contents

                                                                                                                                             Page

                                               Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

                                               Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

                                               OIG Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .xi

                                               OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

                                               Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

                                                  Acquisition Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

                                                  Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4

                                                  Financial Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5

                                                  Protection of Federal Facilities and Personnel . . . . . . . . . . . . . . . .6

                                                  Greening Initiative . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7

                                                  American Recovery and Reinvestment Act of 2009 . . . . . . . . . . . .8

                                               Other Initiatives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10

                                                  FAR Rule for Contract Disclosure . . . . . . . . . . . . . . . . . . . . . . . . .11

                                               Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . . . .12

                                               Government-wide Policy Activities . . . . . . . . . . . . . . . . . . . . . . . . . .20

                                               Professional Assistance Services . . . . . . . . . . . . . . . . . . . . . . . . . . .22

                                               Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . .24

                                               Appendixes

                                               Appendix I – Significant Audits from Prior Reports . . . . . . . . . . . . . .31

                                               Appendix II – Audit Report Register . . . . . . . . . . . . . . . . . . . . . . . . .36

                                               Appendix III – OIG Reports over 12 Months Old,                           . . . . . . . . . . . . . .43
                                                 Final Agency Action Pending

                                               Appendix IV – Government Contractor Significant Report Findings . . .49

                                               Appendix V – OIG Reports Without Management Decision . . . . . . .50

                                               Appendix VI – Peer Review Results . . . . . . . . . . . . . . . . . . . . . . . . .51

                                               Appendix VII – Reporting Requirements . . . . . . . . . . . . . . . . . . . . .52

                                               Appendix VIII – OIG Offices and Key Officials . . . . . . . . . . . . . . . . .53

                                                                                                                October 1, 2010 – March 31, 2011 iii
12497-01_FM_rev8.qxd   5/12/11   9:06 AM   Page iv
12497-01_FM_rev8.qxd   5/12/11   9:06 AM   Page v




                                             Summary of OIG Performance

                                               October 1, 2010 – March 31, 2011

         OIG Accomplishments                   Total financial recommendations                              $173,184,658

                                               These include:

                                               • Recommendations that funds be put to better use            $157,393,262

                                               • Questioned costs                                            $15,791,396

                                               Audit reports issued                                                     58

                                               Referrals for criminal prosecution, civil
                                               litigation, & administrative action                                     364

         Results Attained                      Management decisions agreeing with audit
                                               recommendations [civil settlements and
                                               court-ordered and investigative recoveries]                  $542,559,554

                                               Indictments and informations on criminal referrals                       36

                                               Cases accepted for criminal prosecution                                  39

                                               Cases accepted for civil action                                            9

                                               Successful criminal prosecutions                                         25

                                               Civil settlements                                                        18

                                               Contractors/individuals suspended and debarred                           58

                                               Employee actions taken on administrative referrals
                                               involving GSA employees                                                  14




                                                                                             October 1, 2010 – March 31, 2011 v
12497-01_FM_rev8.qxd   5/12/11   9:06 AM   Page vi
12497-01_FM_rev8.qxd   5/12/11   9:06 AM   Page vii




                                                      Executive Summary



         During this semiannual period, the OIG continued to direct    period, we performed 35 preaward examinations and
         its auditing and investigative resources toward what it has   recommended more than $157 million in funds to be put to
         identified as the major management challenges facing          better use. Management decisions were made on 23 of our
         GSA. The OIG conducted audits and investigations to           preaward reports, which recommended that over $288
         ensure the integrity of the Agency’s financial statements,    million of funds be put to better use. Management agreed
         programs, and operations, and to ensure that the              with 99.3 percent of our recommended savings (page 2).
         taxpayers’ interests were being protected. The OIG also
         continued to initiate actions to prevent fraud, waste, and    Audit of the PBS National Broker Contract. Our audit
         abuse, and to promote economy and efficiency throughout       of the Public Buildings Service’s (PBS) National Broker
         GSA. The OIG’s resources have been directed specifically      Contract (NBC) demonstrated that a substantial portion of
         toward conducting financial and programmatic audits;          GSA’s lease acquisition workload remains outside the
         management control assessments; attestation                   scope of commission-based services and that PBS’s
         engagements; investigations of fraud, abuse, and              existing business applications do not fully support a shift
         related actions by GSA employees and government               away from in-house service delivery. It is unclear if the
         contractors; and litigation support in civil fraud actions,   program as a whole produced the cost savings that were
         enforcement actions, criminal prosecutions, and               anticipated (page 2).
         administrative actions, all in an effort to maintain the
         integrity of GSA programs.                                    Review of Consistency in Implementing Policy Across
                                                                       Acquisition Centers—Temporary Extensions. We
         Summary of Results                                            found that the Federal Acquisition Services (FAS)
         The OIG made over $173 million in financial                   acquisition centers do not consistently implement or follow
         recommendations; made 364 referrals for criminal              proper regulations and procedures regarding temporary
         prosecution, civil litigation, and administrative action;     contract extensions. Interviews with FAS contracting
         issued 36 subpoenas; and received 1,585 Hotline               personnel indicated uncertainty regarding the correct
         contacts. This period, we achieved savings from               procedures, and some contract files lacked evidence of
         management decisions on financial recommendations,            supervisory review. These inconsistencies appear to be
         civil settlements, and investigative recoveries totaling      symptomatic of a lack of adequate centralized policies and
         over $542 million.                                            procedures and the absence of an automated method for
                                                                       compiling and reporting data (page 3).
         Management Challenges                                         Memorandum: Task Order for Environmental
         The OIG continued to strive to provide the high level of      Communication Services at the Bannister Federal
         quality in reviews and recommendations for which it is        Complex. PBS violated competitive procurement
         known, in order for GSA to continue leading the               regulations by awarding a sole source task order in just
         government in contracting and procurement. During this        one day without adequate justification for the “unusual and
         semiannual period, the focus has been on acquisition          compelling need” cited; without support for the conclusion
         programs, information technology, financial reporting,        that an unacceptable delay would have occurred with
         protection of federal facilities and personnel, greening      competition; and without defining measurable deliverables
         initiatives, and the American Recovery and Reinvestment       or the scope of work. This matter was the subject of a
         Act (Recovery Act). The following are significant audits      Senate Subcommittee on Contracting Oversight hearing
         and reviews that identify major challenges facing GSA.        on March 1, 2011. Since the review of this matter is on-
                                                                       going, we expect to issue formal recommendations in an
         Acquisition Programs                                          audit report to be issued at a later date (page 3).
         Significant Preaward Examinations and Other Audits.
         The pre-decisional, advisory nature of preaward               Information Technology
         examinations enables contracting officers to improve the      FY 2010 OIG FISMA Review of GSA’s Information
         government’s negotiating position and to realize millions     Technology (IT) Security Program. The Federal
         of dollars in savings on negotiated contracts. During this    Information Security Management Act (FISMA) requires


                                                                                              October 1, 2010 – March 31, 2011 vii
12497-01_FM_rev8.qxd   5/12/11   9:06 AM   Page viii




                                                   Executive Summary



      Inspectors General to perform an annual independent            Audit Memorandum to the FAS Commissioner: Eco-
      evaluation to determine the effectiveness of their             labels on GSA Advantage!. This review disclosed that
      agencies’ IT security programs. GSA continues to make          84 percent of the manufacturers listed in GSA’s
      improvements. Our office recommended (1) strengthening         Advantage! as having Green Seal certification are not
      security misconfigurations; (2) implementation of audit        actually certified (page 7).
      logging and monitoring policy for three systems; (3) using
      multifactor authentication; and (4) encrypting agency          American Recovery and Reinvestment Act of 2009
      laptops. The Chief Information Officer (CIO) concurred         Richard H. Poff and Huntington Building Modernization
      with our report recommendations (page 4).                      Projects Review. Valued at $51.4 and $27.8 million
                                                                     respectively, the Poff and Huntington Federal Building
      Financial Reporting                                            contracts were awarded without adequate price
      Audit of GSA’s FY 2010 Financial Statements. This              competition, in violation of the Competition in Contracting
      audit was performed by an independent public accounting        Act (CICA). GSA provided the Guaranteed Maximum
      firm and identified significant deficiencies related to        Price (GMP) for construction services to potential bidders,
      controls over budgetary accounts and transactions;             effectively eliminating price as an evaluation factor and
      accounting and reporting of general property and               stymieing opportunities for competition (page 8).
      equipment; accounting and reporting of environmental
      liabilities; revenue and expense recognition policies in the   Edith Green/Wendell Wyatt Modernization Project
      FAS Fund; and financial management systems (page 5).           Review. This audit found that PBS incorrectly executed
                                                                     the Construction Manager as Constructor (CMc)
      Protection of Federal Facilities and Personnel                 contract because it did not establish the GMP at the
      Review of Health and Safety Conditions at the                  contract award, proceeded without justification for other
      Bannister Federal Complex, Kansas City, MO. The                than full and open competition, and did not use
      OIG conducted a review of the PBS Heartland                    Independent Government Estimates to determine price
      Region’s environmental management program and                  reasonableness (page 8).
      the environmental conditions at the Bannister Federal
      Complex after concerns surfaced that employees may             Peace Arch U.S. Port of Entry Redevelopment. Our
      have developed serious illnesses or died as a result of        audit found that PBS did not establish the required GMP
      exposure to toxic substances at the Complex. Recent            and also failed to justify the use of other than full and
      testing has revealed no significant health hazards, but the    open competition (page 9).
      PBS Region, prior to 2010, did not always take appropriate
      steps to protect the health and safety of the occupants; did   Limited Scope Review of Task Order FN750801T3R
      not have a strong environmental management program in          Funded by Recovery Act. Our review of a follow-on
      place; provided incorrect and misleading information in        Recovery Act task order awarded to Indian Health
      response to questions about environmental concerns; and        Services for server upgrades found that it was
      did not have a clear understanding of its environmental        inappropriately awarded because the requirements
      responsibilities (page 6).                                     were outside the scope of the original task order and
                                                                     price reasonableness was not determined (page 10).
      Greening Initiative—Sustainable Environmental
      Stewardship                                                    IT Support Task Order for the Department of
                                                                     Homeland Security (DHS) Consolidation at Saint
      Review of PBS’s Greater Southwest Regional Energy
                                                                     Elizabeth’s. We reviewed the award, protest, and
      Savings Performance Contract Task Orders. The
                                                                     cancellation of a $2.6 billion task order for information
      review disclosed that PBS in GSA’s Greater Southwest
                                                                     technology (IT) infrastructure for DHS’s Headquarters
      Region did not obtain full and open competition in
                                                                     Consolidation project under our Recovery Act oversight
      awarding a $10 million Energy Savings Performance
                                                                     responsibilities. We noted multiple deficiencies and
      Contracts task order to Honeywell International, Inc.
                                                                     provided our observations to management to assist in
      Their justification did not demonstrate the urgency cited
                                                                     formulating re-compete strategy (page 10).
      as a reason for restricting competition (page 7).

       viii Semiannual Report to the Congress
12497-01_FM_rev8.qxd   5/12/11   9:06 AM    Page ix




                                                       Executive Summary



         Other Initiatives                                               that federal agencies purchase Sun products (page
         FAR Rule for Contractor Disclosure                              12). Black Box Corporation agreed to pay $2.85 million to
         The GSA OIG continues to evaluate and act on the                settle False Claims Act allegations that between 1998 and
         disclosures made by contractors pursuant to the FAR rule        2003 it failed to provide “volume order” discounts and
         requiring a contractor code of business ethics and              promotional pricing as required by its GSA Multiple Award
         conduct, an internal control system, and disclosure to the      Schedule (MAS) contract (page 12). Lockheed Martin
         government of certain violations of criminal law, violations    agreed to pay the government $2 million to resolve
         of the False Claims Act, and significant overpayments.          allegations that it also violated the False Claims Act (page
         During this reporting period, the OIG received nine             13). Divine Imaging agreed to pay the government $1.5
         disclosures, which related to timekeeping system                million for deliberately representing that the products it sold
         errors, compliance failures, contractor employee                under government contracts were manufactured in TAA
         fraud/inappropriate behavior, misuse of task order funds,       designated countries, when in fact the products were
         and overbilling, both deliberate and unintentional (page 11).   manufactured in non-designated countries, including the
                                                                         People’s Republic of China (page 13).
         Promoting and Protecting Integrity                              Strategic Partnership with ICE Yields Results. In
         To meet the needs of customer agencies, GSA                     recent years, the Office of Investigations has observed a
         contracts for billions of dollars’ worth of equipment,          rise in the number of investigations involving counterfeit
         supplies, materials, and services each year. When               products in the government supply chain, such as
         systemic issues are identified during investigations, they      counterfeit software and information technology. To better
         are shared with GSA management for appropriate                  protect the government from such critical vulnerabilities to
         corrective actions. During this period, criminal, civil, and    its infrastructure, the GSA OIG created the Government
         other monetary recoveries totaled almost $246 million.          Infrastructure Protection Initiative (GIPI) by partnering
                                                                         with U.S. Immigration and Customs Enforcement (ICE)’s
         Significant Civil Actions and Criminal                          Intellectual Property Rights Center. Most notable during
         Investigations                                                  this semiannual period was a collaborative investigation
         GSA OIG Establishes Headquarters Unit to Support                of a naturalized U.S. citizen from China who imported
         Civil Recoveries                                                counterfeit products to be sold to Cisco, and ultimately,
         The OIG Office of Investigations has consolidated               the U.S. Government (page 13).
         efforts on civil recoveries involving qui tam filings, FAR
         disclosures, and Trade Agreements Act (TAA) violations          Theft and Fraud. Three former executives for the National
         in its Washington, D.C. field office to make the greatest       Center for the Employment of the Disabled (NCED) were
         possible use of its investigative expertise. The unit           sentenced in March following an investigation that
         now serves as a “one-stop shop” for conducting civil            revealed the trio conspired to embezzle federal program
         investigations and has seen much success during this            funds by falsely representing that their handicapped
         reporting period (page 12).                                     workforce performed over 75 percent of government
                                                                         contract work as required to receive no-bid contracts. The
         Civil Recoveries. Verizon Communications agreed to pay          three executives were ordered to pay $3.8 million, $58.2
         $92.7 million plus interest to settle allegations that it had   million, and $1.7 million in restitution respectively (page
         improperly submitted claims for payment of certain taxes        14). Former GSA contractor Nicole Smith was sentenced
         and charges under its telecommunications contract with          to 20 months of incarceration, three years of supervised
         GSA (page 12). Oracle America agreed to pay the                 release, and 400 hours of community service, and ordered
         government $46 million to resolve claims that Sun               to pay $1.88 million in restitution, for using her access to
         Microsystems, Inc., which merged with Oracle in 2010,           GSA computer systems to create fraudulent task orders to
         submitted false claims to GSA and other agencies. The           her company, NTT Consulting, LLC (page 14). Jeffrey
         settlement resolves allegations in a qui tam complaint that     Blake and Michael Morand of M & A Supply were ordered
         Sun provided incomplete and inaccurate information to           to pay $225,213 to the government for their role in a
         contracting officers and paid kickbacks to systems              conspiracy to submit false freight invoices related to a GSA
         integrator companies in return for recommendations              schedule contract (page 14). An investigation revealed

                                                                                                  October 1, 2010 – March 31, 2011 ix
12497-01_FM_rev8.qxd   5/12/11    9:06 AM    Page x




                                                      Executive Summary



      that Alan Shad, owner of Rugged Notebooks, falsified the          Contractor Stephen Hunter was sentenced to six months in
      country of origin information for the laptops sold to the         jail after pleading guilty to three felony counts of financial
      government through a GSA contract. Rugged Notebooks               transaction card fraud to fuel personal vehicles (page 16).
      has been debarred for five years (page 15). Nortel                A National Park Service maintenance worker pleaded guilty
      Networks was debarred until October 2013 after the GSA            to theft when it was revealed that the employee had used
      OIG received information that Nortel paid $35 million to the      government credit cards to fuel privately owned vehicles
      government to settle a lawsuit filed by the Securities and        (page 16). A Fort Bragg contractor employee was arrested
      Exchange Commission (SEC) alleging that it engaged in             while using a government credit card to fuel privately
      accounting fraud (page 15). A Customs and Border                  owned vehicles and was charged with felony financial card
      Protection officer was debarred from doing business with          theft (page 17).
      the government for four years after pleading guilty to
      federal alien smuggling and bribery charges, for which he         WPA Artwork. The GSA OIG has continued its
      was sentenced to 37 months of incarceration (page 15).            collaborative campaign with the Public Buildings Service’s
      Former Air Force commander Sidney Brandler pleaded                Fine Arts Program to spread awareness of our recovery of
      guilty to a charge of misprision of a felony after it was         artworks produced through the New Deal era Works
      revealed that he had an interest in a company that does           Progress Administration (WPA). During this period, two
      business with the United States; his business partner in          historically significant pieces were returned to the custody
      the venture was the contract program manager                      of the government: Before the Storm, and John Holland’s
      responsible for recommendating of which companies                 Trees, Golden Gate Park. Several print articles, a D.C.
      should receive GSA task orders (page 15). Colin Michael           area cable news program interview of Inspector General
      Fry pleaded guilty to the theft of numerous plasma                Brian Miller, the release of a GSA-produced video
      televisions from the Chet Holifield Federal Building, and         documentary entitled Returning America’s Art to America,
      was sentenced to three years of probation and ordered to          and the airing of a WPA segment on Public Television’s
      pay restitution in the amount of $3500 (page 15).                 The Antiques Roadshow, anticipated this summer, will
                                                                        continue to bolster our recovery efforts (page 17).
      Fleet and Travel Card Abuse. A proactive GSA OIG
      investigation resulted in the arrest and indictment of a          Suspension and Debarment. During this reporting period,
      contractor and her husband for using multiple Wright              the OIG made 112 referrals to the GSA Office of Acquisition
      Express (WEX) credit cards to fuel non-government                 Policy. GSA issued 58 suspensions and debarment actions
      vehicles, resulting in an estimated loss of $298,780 (page        based on current and previous OIG referrals.
      16). A former Amtrak Track Inspector, Ross Kelly, pleaded
      guilty to theft and was ordered to pay $8,000 in restitution      Integrity Awareness. The OIG presents Integrity
      for his fraudulent use of a government credit card for fuel for   Awareness Briefings to educate GSA employees on
      his personal vehicle, and for fraudulently claiming overtime      preventing fraud and abuse. During this period, the OIG
      that he never worked (page 16). Chaz Mathis pleaded               presented 32 briefings attended by 287 employees.
      guilty to theft and aiding and abetting for fraudulent use of
      a WEX credit card assigned to the U.S. Navy Earle Naval           Hotline. During this reporting period, the OIG received
      Weapons Station (page 16). U.S. Army Staff Sergeant               1,585 Hotline contacts, on the basis of which 219 Hotline
      Vincent Dotson was demoted two grades and ordered to              cases were initiated. Of these cases, 95 referrals were
      forfeit $7,200 in pay and pay the GSA $1,500 in restitution       made to GSA program officials; 49 referrals were made
      after the GSA OIG revealed that he had misused a                  to other federal agencies; 69 were referred for OIG
      government vehicle and corresponding WEX credit card,             investigations or audits; and 6 did not warrant further
      costing the government approximately $8,800 (page 16).            review.




       x Semiannual Report to the Congress
12497-01_FM_rev8.qxd    5/12/11   9:06 AM   Page xi




                                                      OIG Organization Chart


                                                          Inspector General
                                                            Brian D. Miller
                                                       Deputy Inspector General
                                                          Robert C. Erickson

                       Office of Counsel to the IG                                      Office of Evaluation & Analysis
                               Richard Levi                                                     Patricia Sheehan
                            Counsel to the IG                                                    Acting Director
                       Office of Communications &
                          Congressional Affairs                                          Management         Forensic
                                Dave Farley                                              Evaluations        Auditing
                                  Director


              Office of Administration                       Office of Audits                     Office of Investigations
                   Larry Lee Gregg                         Theodore R. Stehney                     Geoffrey Cherrington
               AIG for Administration                        AIG for Auditing                      AIG for Investigations


                 Budget and Financial                         Audit Planning, Policy,                  Investigations Operations
                 Management Office                             and Operations Staff                             Division



                    Facilities and                              Administration &                            Regional Offices
                   Services Office                             Data Systems Staff                           Washington, DC
                                                                                                              New York
                                                                                                               Atlanta
                                                              Special Projects Office                          Chicago
                  Contracting Office                                                                         Kansas City
                                                                                                              Fort Worth
                                                             Finance and Information                        San Francisco
                                                             Technology Audit Office                           Auburn
                Information Technology                                                                         Boston
                       Division                                                                              Philadelphia
                                                                  Real Property
                                                                   Audit Office
                  Human Resources
                                                                                                                Sub-Offices
                     Division                                                                                      Denver
                                                               Acquisition Programs                            Laguna Niguel
                                                                   Audit Office                                Ft. Lauderdale
                    Executive                                                                                   Sacramento
                  Resources Staff/
                Human Capital Officer
                                                                Field Audit Offices
                                                                    New York
                                                                   Philadelphia
                                                                     Atlanta
                                                                     Chicago
                                                                   Kansas City
                                                                    Fort Worth
                                                                  San Francisco




                                                                                               October 1, 2010 – March 31, 2011 xi
12497-01_FM_rev8.qxd   5/12/11   9:06 AM   Page xii




      (This page was intentionally left blank.)


       xii Semiannual Report to the Congress
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM   Page 1




                                                             OIG Profile



         Organization                                                    techniques to conduct investigations and reviews
                                                                         of potentially fraudulent, improper, wasteful and/or
         The GSA OIG was established on October 1, 1978 as
                                                                         abusive activities within selected Agency operations
         one of the original 12 OIGs created by the Inspector
                                                                         and programs. The evaluation and analysis program
         General Act of 1978. The OIG’s five components work
                                                                         conducts operational assessments of OIG’s central
         together to perform the missions mandated by
                                                                         and field offices and other operating components,
         Congress.
                                                                         implements the OIG’s Federal Managers’ Financial
                                                                         Integrity Act program, and undertakes special projects
         The OIG provides nationwide coverage of GSA
                                                                         and analyses as required by the Inspector General.
         programs and activities. Our components include:
                                                                       • The Office of Administration, a professional staff
         • The Office of Audits, an evaluative organization staffed      that provides information technology, budgetary,
           with auditors and analysts who provide comprehensive          administrative, and personnel support services to all
           coverage of GSA operations through program reviews,           OIG offices.
           assessment of management controls, and financial,
           regulatory, and system audits. The office conducts
           attestation engagements in support of GSA contracting       Office Locations
           officials to carry out their procurement responsibilities   The OIG is headquartered in Washington, DC, at GSA’s
           and obtain best value for Federal customers and the         Central Office Building. Field and regional offices are
           American taxpayers. The office also provides other          maintained in Atlanta, GA; Auburn, WA; Boston, MA;
           services to assist management in evaluating and             Chicago, IL; Denver, CO; Fort Lauderdale, FL; Fort
           improving their programs.                                   Worth, TX; Kansas City, MO; Laguna Niguel, CA; New
                                                                       York, NY; Philadelphia, PA; Sacramento, CA; San
         • The Office of Investigations, an investigative              Francisco, CA, and the Washington, D.C. area. A
           organization that conducts a nationwide program to          contact list of OIG offices and key officials is provided in
           prevent, detect, and investigate illegal and/or improper    Appendix VIII.
           activities involving GSA programs, operations, and
           personnel.
                                                                       Staffing and Budget
         • The Office of Counsel, an in-house legal staff that         As of March 31, 2011, our on-board staffing level was
           provides legal advice and assistance to all OIG             312 employees. The OIG’s Fiscal Year (FY) 2011
           components, represents the OIG in litigation arising        budget request was $65.5 million, which includes
           out of or affecting OIG operations, and manages the         $450,000 in reimbursable authority and $2.18 million in
           OIG legislative and regulatory review.                      funds appropriated under the American Recovery and
         • The Office of Evaluation & Analysis houses the              Reinvestment Act of 2009. In lieu of a full year
           internal OIG evaluation and analysis program and the        appropriation, the OIG is currently operating under a
           Office of Forensic Auditing. The Office of Forensic         continuing resolution.1
           Auditing employs innovative auditing and investigative




                                                                       1
                                                                         These numbers reflect our operating budget as of the last day of
                                                                       the reporting period. Before our report went to print, Congress
                                                                       passed the FY 2011 budget. Our budget now stands at $58.8
                                                                       million.


                                                                                                 October 1, 2010 – March 31, 2011 1
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM    Page 2




                                               Management Challenges



      Each year since 1998, we have identified and shared with Congress and senior GSA management those areas and issues
      we believe to be the major challenges facing the Agency. (This year’s list is summarized on the front inside cover of this
      report.) During this reporting period, we continued our work addressing these challenges by recommending corrective
      actions, and working with management to improve Agency operations. The following highlights some of our activities.

      Acquisition Programs                                           the extent to which it offered higher discounts to its
                                                                     commercial customers vis-à-vis those offered GSA, while
      GSA provides federal agencies with billions of dollars of      the other failed to report any of its higher discounting
      products and services through various types of contracts.      practices.
      As of March 31, 2011, there were almost 19,000
      Multiple Award Schedule (MAS) contracts under GSA’s            The Office of Management and Budget (OMB) has long
      procurement program with over $20.5 billion in annual          recognized both the value of our audit coverage and
      sales.We oversee this program by conducting attestation        the dichotomy between the growth in GSA’s contract
      engagements and audits of these contracts. Historically,       activities and our limited audit resources. Beginning in
      for every dollar invested in our preaward examinations,        2004, OMB supplemented our financial support, through
      we achieve at least $10 in lower prices, or more favorable     Federal Acquisition Service (FAS) contract program
      contract terms and conditions for the benefit of the           revenue, so that we could increase our oversight in this
      government and the taxpayer.                                   area. These additional funds allowed us to hire staff to
                                                                     support expanded audit and attestation engagement
      Significant Preaward Examinations and Other Audits             activities, primarily preaward examinations (with minor
      The pre-decisional, advisory nature of preaward                increases in performance audits as well). Starting in FY
      examinations distinguishes them from other products.           2010, OMB increased the OIG’s direct appropriations to
      This program provides vital and current information            help ensure continued service in this area. As in the past,
      enabling contracting officers to significantly improve the     we will work closely with FAS to develop preaward and
      government’s negotiating position and to realize millions      contract performance assessment programs that
      of dollars in savings on negotiated contracts. During this     strengthen government-wide contracts and provide value
      period, we performed preaward examinations of 35               for the taxpayers.
      contracts with an estimated value of $4.25 billion. We
                                                                     Audit of the PBS National Broker Contract
      recommended that more than $157 million in funds be
      put to better use. Management decisions were made on           Report Number A070228/P/W/R11004, dated December 22,
      23 of our preaward reports, which recommended over $288        2010
      million of funds be put to better use, and management
      agreed with 99.3 percent of our recommended savings.           This audit determined that the Public Buildings
                                                                     Service’s (PBS) initial National Broker Contract (NBC)
      Four of our more significant examinations were of MAS          program achieved mixed results. On one hand, the NBC
      contracts with projected government-wide sales totaling        proved to be successful in that it showed that a national
      more than $1.9 billion. These examinations resulted in         scope contract can attract competitive, qualified
      recommendations that $114 million in funds be put to           brokers able to deliver effective leasing services under
      better use. Two of the vendors could not demonstrate           a commission-based compensation formula. It also
      that their proposed rates were fair and reasonable, mainly     showed that commission-based compensation can be
      because they did not have sufficient commercial sales to       made compatible with federal appropriations law and
      use as a basis for this determination. The alternate cost      that conflicts of interest in the leasing arena can be a
      build-up information they provided showed that the             manageable risk. On the other hand, NBC did not realize
      proposed rates were overstated. In the other two               all of its desired goals. It demonstrated that a substantial
      examinations, the commercial sales practices information       portion of GSA’s lease acquisition workload remains
      provided to support the reasonableness of the proposed         outside the scope of commission-based services. The
      pricing was inaccurate. One contractor failed to disclose      shift away from in-house service delivery presents


       2 Semiannual Report to the Congress
12497-02_SAR_rev7.qxd     5/5/11    11:09 AM    Page 3




                                                      Management Challenges



         Acquisition Programs (continued)

         administrative burdens not fully supported by PBS’s                   • Ensure consistency in implementing and adhering to
         existing business applications. In addition, it is unclear if           regulations, policies, and procedures regarding
         the program, taken as a whole, produced the cost savings                temporary extensions by establishing centralized
         that were anticipated.                                                  policies and procedures for use of the proper contract
                                                                                 clauses by the acquisition centers.
         Our report did not contain formal recommendations; rather,
         the results were presented to management with the intent              • Remedy potential financial and competition issues by
         of assisting PBS in the administration of the successor                 examining the contracts with performance period
         NBC program. PBS noted that many of the issues raised                   lapses identified as part of this review.
         in this report were addressed with the award of the second
         generation NBC.                                                       • Improve FAS’s ability to manage and reduce the need for
                                                                                 temporary extensions within the MAS program by
         Review of Consistency in Implementing Policy                            developing an automated method of accumulating and
         Across Acquisition Centers – Temporary Extensions                       reporting data regarding the use of temporary extensions.
         Report Number A100204/Q/A/P11005, dated March 31, 2011                  The data collected should encompass all acquisition
                                                                                 centers and the rationale for issuing any extension.
         We found that the Federal Acquisition Service (FAS)
         acquisition centers do not consistently implement and/or              The FAS Commissioner concurred with our report
         follow proper regulations, policies, and procedures                   recommendations.
         regarding temporary contract extensions.1 Contracting
         officers are not consistent regarding the contract                    Memorandum: Task Order for Environmental
         clauses they cite as authority to issue contract                      Communications Services at the Bannister
         extensions. Interviews with FAS contracting personnel                 Federal Complex: GX-P-06-10-GS-0012 Awarded
         disclosed uncertainty regarding the correct procedures                to Jane Mobley Associates, Inc.
         to use in awarding temporary extensions. In addition,                 Dated February 18, 2011
         some contract files lacked evidence of supervisory
         review of the temporary extensions. These issues could                GSA’s PBS violated competitive procurement regulations
         result in invalid contract extensions and lapses in the               by awarding the subject task order in one day to a sole
         performance period of MAS contracts. The primary                      source without adequate justification for the “unusual
         cause of these inconsistencies appears to be the lack of              and compelling need” for work performed.The Agency did
         adequate centralized policies and procedures regarding                not support that an unacceptable delay would occur if it
         temporary extensions. In addition, FAS does not have an               obtained competition. The scope of work was not
         automated method for centrally compiling, summarizing,                sufficiently defined nor were there measurable
         and reporting data regarding the use of temporary                     deliverables. The government did not demonstrate the
         extensions. The absence of this data significantly limits             need for these services nor that the price was fair and
         FAS’s ability to manage and reduce the need for these                 reasonable.
         extensions.
                                                                               This review was initiated based on fieldwork conducted
         We recommended that the Commissioner of the Federal                   during our examination of the health and safety conditions
         Acquisition Service:                                                  at the Bannister Federal Complex. At that time, we noted
                                                                               problems related to the award and administration of this
         1
          FAS’s MAS contracts contain one five-year base period and            task order and issued a memorandum to the Region
         three five-year option periods. Warranted contracting officers are    expressing our concerns.
         responsible for awarding the base contracts and options. If a
         contracting officer is unable to exercise an option period prior to   Contracting actions should always be properly
         the contract’s expiration date, they may temporarily extend the
                                                                               supported in terms of need, including any source
         period of performance for a designated amount of time.


                                                                                                      October 1, 2010 – March 31, 2011 3
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM    Page 4




                                               Management Challenges



      Acquisition Programs (continued)

      restrictions and cost. The purpose of our memorandum          However, during our annual FISMA review, we tested
      was to make GSA management aware of problems with             five systems: Excluded Parties List System; Federal
      the procurement and to assist the region in ensuring that     Procurement Data System Next Generation (FPDS-
      these problems are not repeated in the future.                NG); FedBizOpps; Information Technology Solutions
                                                                    Shop (ITSS); and Electronic Acquisition System
      The PBS Regional Commissioner reaffirmed                      (EAS)/Comprizon. Overall, we found four key areas
      management’s position that the contract met the criteria      which need further strengthening:
      for an urgent and compelling need and that the
      contractor was the only local firm that had knowledge of      • Security misconfigurations of database or operating
      the issues. There is no corrective action required.             system software increased the risk that these systems
      However, since these matters are part of an on-going            and/or their sensitive data could be inappropriately
      review, we plan to prepare a formal audit report with           accessed, modified, or destroyed.
      appropriate recommendations at a later date.
                                                                    • Inconsistent implementation of the audit logging and
      Information Technology                                          monitoring policy for three of the five systems means
                                                                      system security officials may be unable to determine if
      Improved planning, development, and implementation of
                                                                      there has been unauthorized activity or if the systems
      information technology (IT) systems and services are
                                                                      have been compromised. Further, investigative actions
      needed to ensure quality data and to support business
                                                                      in response to security incidents may be hindered.
      decisions. GSA management faces challenges in meeting
      two strategic business goals of providing effective and
                                                                    • None of the five systems used multifactor authentication
      reliable IT systems and solutions, and providing balanced
                                                                      for remote access to sensitive information. As a result,
      stewardship of information and technology. Challenges
                                                                      these systems were placed at an increased risk of
      exist because GSA systems often do not integrate with
                                                                      unauthorized access, disclosure of sensitive information,
      each other, resulting in duplication of business processes,
                                                                      and having their data compromised.
      cost inefficiencies, and customer dissatisfaction.
                                                                    • GSA has not implemented a solution to encrypt agency
      FY 2010 Office of Inspector General FISMA Review
                                                                      laptops, a condition we originally reported in 2008.
      of GSA’s Information Technology Security Program
                                                                      Consequently, sensitive information may be disclosed
      Report Number A100085/O/F/F11001, dated December 8,             and/or misused in the event that the laptops are lost or
      2010                                                            stolen.

      The Federal Information Security Management Act of            To improve GSA’s IT Security Program and ensure the
      2002 (FISMA) requires Federal agencies to develop,            security of GSA systems, data, and operations, we
      implement, and document an agency-wide information            recommended that the GSA CIO take actions to:
      security program. FISMA requires Inspectors General to
      perform an annual independent evaluation to determine         • Strengthen configuration management practices for
      the effectiveness of their respective agency’s information      GSA systems by:
      security program, including testing a subset of the
      agency’s information systems.                                   º Increasing oversight of security officials’ application
                                                                        of baseline configuration requirements, and
      GSA’s Chief Information Officer (CIO) continues to make         º Expanding technical testing processes to include
      improvements in the agency’s IT security program. For             authenticated scanning.
      example, the CIO has updated GSA’s IT Security
      Policy, published procedural guidance on a variety of         • Work with system security officials to prioritize the
      information security topics, and expanded the IT security       implementation of audit logging and monitoring
      program to cover cloud computing technologies.                  controls for GSA systems.

       4 Semiannual Report to the Congress
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM   Page 5




                                                 Management Challenges



         Information Technology (continued)

         • Ensure that all remotely accessed systems implement         (RBA) system. ITSS was designed to facilitate the
           multi-factor authentication, as appropriate.                development of delivery and purchase orders through an
                                                                       automated, convenient, and secure publicly accessible
         • Implement an encryption solution for agency laptops         web-based user interface.
           that integrates into GSA’s network environment.
                                                                       *Office of Inspector General Information Technology Security
         The CIO concurred with our report recommendations.            Audit of the Information Technology Solutions Shop (ITSS)
                                                                       System, Report Number A100123/Q/F/P11002, dated
         The following describes the systems we tested:                November 9, 2010

         The Excluded Parties List System (EPLS)* is an                The Electronic Acquisition System/Comprizon
         electronic, web-accessible database used to compile           (EAS)* system is intended to provide the Public Buildings
         and maintain a current listing of all parties debarred,       Service procurement community with a comprehensive
         suspended, proposed for debarment, or declared                software product to support the full contracting lifecycle
         ineligible to participate in federal programs.                within the service.

         *FY 2010 Office of Inspector General Information Technology   *FY 2010 Office of Inspector General Information Technology
         Security Audit of the Excluded Parties List System, Report    Security Audit of the Electronic Acquisition System (EAS)/
         Number A100113/O/F/F11003, dated December 20, 2010            Comprizon, Report Number A100122/P/F/R11002, dated
                                                                       November 9, 2010
         The Federal Procurement Data System – Next
         Generation (FPDS-NG)* is the federal government’s             Financial Reporting
         official source for procurement data and is used to track
         government spending. The data is also used to measure         GSA systems, including its financial system of record
         and assess the impact of federal procurement on the           (Pegasys), continue to have deficiencies in interoperability
                                                                       and interfaces. As a consequence, GSA management
         nation’s economy, the extent to which awards are made
                                                                       continues to rely heavily on manual workarounds and
         to businesses in various socio-economic categories,
                                                                       significant adjusting entries to prepare the financial
         and the impact of full and open competition on the
                                                                       statements and related note disclosures. Controls over
         acquisition process.
                                                                       budgetary accounts and transactions, financial reporting,
                                                                       and over certain note disclosures need improvement.
         *FY 2010 Office of Inspector General Information Technology
         Security Audit of FPDS-NG, Report Number A100113/O/
                                                                       Audit of the General Services Administration’s
         F/F11004, dated December 20, 2010
                                                                       Fiscal Year 2010 Financial Statements
         The FedBizOpps System (FBO)* is a government-wide             Report Number A100078/B/F/F11002, dated December 23,
         Internet-based information system used to publish federal     2010
         acquisitions. FBO provides authorized federal buyers the
         capability to post solicitations on the Internet and allows   In accordance with the Chief Financial Officer’s Act of
         vendors to search for, monitor, and retrieve information on   1990, the OIG directed the GSA’s FY 2010 Financial
         federal business opportunities.                               Statement Audit. This year, as in the past, the audit was
                                                                       performed by an independent public accounting firm
         *FY 2010 Office of Inspector General Information Technology   (IPA), with oversight, support work, and guidance
         Security Audit of FedBizOpps, Report Number A100113/O/        provided by the OIG. The IPA issued an unqualified
         F/F11005, dated December 28, 2010                             opinion on GSA’s September 30, 2010, balance sheets.
                                                                       The IPA’s unqualified opinion included the Federal
         The Information Technology Solutions Shop (ITSS)*             Buildings Fund, and the Acquisition Services Fund, plus
         is a component of the Regional Business Applications          their related consolidated and individual statements of net


                                                                                               October 1, 2010 – March 31, 2011 5
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM    Page 6




                                               Management Challenges



      Financial Reporting (continued)

      cost, changes in net position, and the combined and            Service (Region) did not always take appropriate steps
      individual statements of budgetary resources for the year.     to protect the health and safety of the occupants of the
                                                                     Complex, even when presented with evidence of
      Although, the IPA did not identify any material                potential hazards. In fact, we determined that prior to
      weaknesses related to GSA’s financial management               2010, the Region did not have a strong environmental
      systems, internal controls, or financial reporting, they did   management program for the Complex. In addition, the
      note significant deficiencies related to (1) controls over     Region’s environmental personnel provided incorrect
      budgetary accounts and transactions; (2) controls over         and misleading information in response to questions
      accounting and reporting of general property and               about environmental conditions at the Complex.
      equipment; (3) controls over accounting and reporting of       Moreover, the Region’s personnel did not have a clear
      environmental liabilities; (4) controls over revenue and       understanding of environmental responsibilities pertaining
      expense recognition policies in the Federal Acquisition        to the GSA-controlled portion of the Complex and did not
      Services Fund; and (5) general and application                 adequately document or maintain files related to health
      controls over financial management systems. The IPA            and safety conditions at the Complex. Finally, the Region
      recommended a number of corrective actions to address          may not have complied with the annual reporting
      each of these issues.                                          requirements of the Comprehensive Environmental
                                                                     Response, Compensation, and Liability Act of 1980
      Protection of Federal Facilities                               (CERCLA).
      and Personnel                                                  We recommended that the GSA Heartland Regional
      GSA has a major multifaceted responsibility to provide a       Administrator, and the Public Buildings Service Regional
      safe, healthy, and secure work environment for over one        Commissioner:
      million employees and public visitors in federal buildings.
      The increased risks from terrorism have greatly expanded       • Build on the actions taken during the current year to
      the range of vulnerabilities. A broadly integrated security      establish an environmental management program that
      program is required.                                             proactively protects the occupants at the Complex.

      Review of Health and Safety Conditions at the                  • Establish controls to ensure that Regional environmental
      Bannister Federal Complex, Kansas City, Missouri                 personnel are knowledgeable of the environmental rules
      Report Number A100116/P/6/R11001, dated November 8,              and regulations applicable to the Complex.
      2010
                                                                     • Institute controls to ensure that information provided to
      In response to requests from U.S. Senators Christopher           the public and in response to other inquiries is accurate
      Bond and Claire McCaskill and Congressman Emmanuel               and that safety and environmental management
      Cleaver, the GSA Inspector General initiated a review of         personnel maintain complete and organized files in
      the environmental conditions at the Bannister Federal            order to provide an accurate basis for the information.
      Complex (Complex) in Kansas City, Missouri. These
      requests indicated concerns that some current and former       • Determine, in conjunction with GSA’s Office of General
      employees may have developed serious illnesses and died          Counsel, if GSA is required to file an annual CERCLA
      as a result of exposure to toxic substances at the Complex.      report with Congress for the Complex and, if
                                                                       applicable, file the appropriate reports.
      First and foremost, recent testing has revealed no
      significant health hazards in the GSA-controlled space         Regional Management disputed some aspects of the
      at the Complex. However, our review disclosed that, in         report but agreed with our recommendations.
      the past, GSA’s Heartland Region Public Buildings



       6 Semiannual Report to the Congress
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM   Page 7




                                                  Management Challenges



         Greening Initiative – Sustainable                              We recommended the Region ensure: (1) that future
                                                                        justifications for other than full and open competition on
         Environmental Stewardship                                      all procurements are valid; and (2) that its personnel are
         Under recent regulatory initiatives, GSA has additional        aware of OMB guidance related to Recovery Act funds.
         responsibilities to lead change toward sustainability in its
         major role in Federal construction, building operations,       The Region’s management did not officially concur
         acquisition, and government-wide policy. The Agency,           with our finding. However, based on discussions with
         however, faces challenges in implementing its Strategic        management and their agreement to take corrective
         Sustainability Performance Plan and achieving its goal         action, we infer management concurs with our finding.
         of a Zero Environmental Footprint. Three obstacles
         exist for successful implementation. First, GSA needs a        Audit Memorandum to the FAS Commissioner:
         transparent management framework to coordinate its             Eco-labels on GSA Advantage!®
         business lines with its external partners. Second, GSA
                                                                        Dated December 22, 2010
         needs metrics that align effectiveness of actions with
         its mission. Third, GSA needs to capture accurate and
                                                                        This review disclosed that 84 percent of the
         complete data to monitor and evaluate sustainable
                                                                        manufacturers listed in GSA Advantage!®, as having
         activities.
                                                                        Green Seal certification are not actually certified.
                                                                        Specifically, only 35 out of 217 manufacturers (16
         Review of the Greater Southwest Region Public
                                                                        percent) were identified by Green Seal as having certified
         Buildings Service Energy Savings Performance
                                                                        products. Further, the 35 certified manufacturers offered
         Contract Task Order
                                                                        numerous uncertified products that were classified as
         Report Number A100169/P/7/R11006, dated January 20, 2011       certified in GSA Advantage!®. Consequently, federal
                                                                        agencies cannot rely on GSA Advantage!®, to help them
         This review disclosed that PBS in GSA’s Greater                meet their sustainable procurement goals.
         Southwest Region (Region) did not obtain full and open
         competition in awarding a $10 million Energy Savings           The Green Seal organization evaluates and certifies
         Performance Contracts (ESPC) task order. To ensure fair        products and services that meet specific environmental
         and reasonable pricing, Federal Acquisition Regulation         standards. GSA Advantage!®, the system agencies use to
         (FAR) and ESPC guidance require executive agencies to          shop for products and services offered by GSA-approved
         obtain competition unless it can be shown to be in the         vendors, identifies these environmentally friendly items
         Government’s best interest to do otherwise.                    via “eco-labeling.” However, GSA does not have controls
                                                                        to ensure the labeling is valid. GSA does not require
         While the Region provided justification for limiting fair      contractors and manufacturers to submit their Green Seal
         opportunity, the justification was not valid. The Region       official award letter and certification as a condition of
         cited an urgent need for the supplies and services in          having their products and services “eco-labeled” in GSA
         question but could not demonstrate this urgency.               Advantage!®.

         With the enactment of the American Recovery and                GSA should conduct a thorough examination of green
         Reinvestment Act (Recovery Act), the Region was                product categories as expeditiously as possible. Until this
         allocated approximately $353 million in Recovery Act           examination is completed, GSA should remove or disable
         funding. On March 30, 2010, as part of its “green building”    the Green Seal search criterion in GSA Advantage!®.
         initiative, the Region awarded an ESPC task order to           Also, GSA must improve its controls regarding the
         Honeywell International, Inc. in the amount of $10,317,613     verification of manufacturers’ Green Seal certifications.
         ($7,029,557of this amount was Recovery Act funding).The
         award was made as a sole source procurement citing an
         urgent need for these services. However, the Region could
         not provide any support for this assertion.



                                                                                               October 1, 2010 – March 31, 2011 7
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM    Page 8




                                               Management Challenges



      American Recovery and Reinvestment                            willing to pay, its action effectively eliminated price as an
                                                                    evaluation factor for the major portion of the contracts.
      Act of 2009                                                   Consequently, this violates CICA. In addition, GSA
      The American Recovery and Reinvestment Act of 2009            exceeded the FAR limits on pricing information that may
      (Recovery Act) provided GSA with a $5.55 billion              be provided in a solicitation. FAR 36.204 states,
      appropriation for its Federal Buildings Fund, and in          “advanced notices and solicitations shall state the
      accordance with the Act, GSA’s Public Buildings Service       magnitude of the requirement in terms of physical
      is using the funds to convert Federal buildings into High-    characteristics and estimated price range.” GSA provided
      Performance Green Buildings as well as to construct           the exact GMP for the construction services options and
      Federal buildings, courthouses, and land ports of entry.      the bids reflected this which raises questions as to
      The Recovery Act mandates that $5 billion of the funds        whether the government received fair pricing.
      were to be obligated by September 30, 2010, and that
      the remaining funds be obligated by September 30,             We recommended that the Commissioner of the Public
      2011. Under this mandate GSA’s project teams have             Buildings Service:
      had to plan and contract for projects within extremely
      short timeframes. Even with the addition of new               • Refrain from exercising the remaining options on the
      employees and contract support staff, meeting these             Poff and Huntington modernization projects unless
      deadlines has strained the capabilities of the project          compliance with applicable laws is assured; and
      teams even before the beginning of actual construction
      for these projects. The GSA OIG is conducting                 • Develop and implement a system of management
      oversight activities including internal audits, attestation     controls to ensure that contracts using the Construction
      engagements, and memorandums of construction and                Manager as Constructor (CMc) methodology meet
      modernization projects funded by the Recovery Act.              competition requirements.

      Recovery Act Report – Richard H. Poff and                     The PBS Commissioner concurred with the report
      Huntington Building Modernization Projects Review             recommendations.
      of PBS’s Major Construction and Modernization
      Projects Funded by the American Recovery and                  Recovery Act Report – Edith Green/Wendell Wyatt
      Reinvestment Act of 2009                                      Modernization Project Review of PBS’s Major
      Report Number A090172/P/R/R11003, dated November 17,          Construction and Modernization Projects Funded
      2010                                                          by the American Recovery and Reinvestment Act
                                                                    of 2009
      GSA violated the Competition in Contracting Act (CICA)        Report Number A090172/P/R/R11005, dated January 21,
      and the competitive requirements of the FAR by                2011
      awarding construction services for the Richard H. Poff
      (Poff) and Huntington Building modernization projects         GSA PBS incorrectly executed the CMc contract with a
      without adequate price competition. The Poff and              Guaranteed Maximum Price for the modernization of the
      Huntington Federal Building modernization projects            Edith Green/Wendell Wyatt Federal Building, located in
      were awarded as Construction Manager as Constructor           Portland, Oregon. We concluded that (1) the procurement
      (CMc) contracts with a Guaranteed Maximum Price               of Construction Phase Services does not meet
      (GMP), and had total contract values of $51,430,910           competition requirements; (2) price reasonableness was
      and $27,839,900, respectively.                                inadequately established; (3) funding was awarded
                                                                    through an unwarranted obligation; and (4) the project
      GSA, through the Requests for Proposals, provided the         management plan was out of date.This report was initiated
      GMP for construction services to potential bidders.           based on fieldwork conducted in the Northwest/Arctic
      Since GSA provided advance knowledge of what it was           Region between January 2010 and October 2010.




       8 Semiannual Report to the Congress
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM   Page 9




                                                 Management Challenges



         American Recovery and Reinvestment Act of 2009 (continued)

         The Construction Phase Services were an unpriced              Recovery Act Report – Peace Arch U.S. Port of Entry
         option because PBS did not establish the GMP at               Redevelopment: Construction Contract Review of
         contract award. Also, since PBS negotiated the GMP on         PBS’s Major Construction and Modernization
         a sole source basis with the CMc contractor, without          Projects Funded by the American Recovery and
         justification for other than full and open competition, the   Reinvestment Act of 2009
         procurement did not comply with the requirements of           Report Number A090172/P/R/R11007, dated March 4, 2011
         the FAR or CICA. Furthermore, PBS did not use
         Independent Government Estimates prepared by an               Our oversight of GSA’s administration of projects funded
         independent third party to determine the price                by the Recovery Act revealed that PBS needs to improve
         reasonableness of Construction Phase Services, and            its supervision of Construction Manager as Constructor
         did not update the project management plan to reflect         (CMc) contracts. One example is its management of the
         the current project. In both instances, PBS did not           Peace Arch Port of Entry project (Peace Arch project) in
         adhere to PBS policy. Finally, PBS also obligated funding     Blaine, WA. In this case, PBS violated the Competition in
         for Construction Phase Services prior to exercising the       Contracting Act (CICA) and certain requirements of
         option resulting in an obligation that was unwarranted.       the FAR. PBS exercised the option for the project’s
         (PBS awarded the CMc contract in December 2009 and            construction phase services as a sole source procurement
         set the GMP in March 2010. The option for Construction        and awarded contract modifications in a manner that
         Phase Services was exercised in July 2010.)                   effectively made them cost reimbursable.

         We recommended that the Commissioner of the Public            The Peace Arch project was multi-phased. Construction
         Buildings Service:                                            phase services were intended to be awarded as a firm
                                                                       fixed price contract. However, PBS did not establish the
         • Develop and implement a system of management                required GMP for the construction option when the design
           controls to ensure that contracts using the Construction    phase was awarded. As a result, the construction phase
           Manger as Constructor methodology meet competition          defaulted to the CMc as an unpriced option. PBS’s failure
           requirements and adequately incentivize the                 to justify the use of other than full and open competition
           procurement;                                                violated both CICA and FAR competition requirements.

         • Perform a review of the cost of construction to ensure      Instead of a fixed price, the project was funded
           that it is fair and reasonable based on information that    incrementally via 14 contract modifications. These
           is current, accurate, and complete;                         modifications were priced based on subcontractor bids.
                                                                       Essentially, this type of approach functions as cost
         • Ensure that project teams have proper guidance and          reimbursable contracting which deviates from the tenets
           training to properly obligate funding for future            of a CMc contract.
           construction contract actions; and
                                                                       We recommended that the Commissioner of the Public
         • Ensure that the project plans for all Recovery Act          Buildings Service develop and implement a system of
           projects have been developed and are up-to-date             management controls to ensure that contracts using the
           including the project objectives, implementation and        construction manager as construction methodology
           risk mitigation strategies, and team roles and              meet competition requirements and provide adequate
           responsibilities; as well as any decisions or changes       incentives for this type of procurement.
           affecting the scope, budget and scheduling.
                                                                       The PBS Commissioner concurred with the report
         The PBS Commissioner concurred with the report                recommendation and noted that PBS is currently
         recommendations.                                              implementing plans to strengthen internal controls
                                                                       surrounding the CMc delivery method.


                                                                                              October 1, 2010 – March 31, 2011 9
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM     Page 10




                                                Management Challenges



      American Recovery and Reinvestment Act of 2009 (continued)

      Memorandum: Limited Scope Review of Task Order                 No formal recommendations were made and
      FN750801T3R Funded by the American Recovery                    Management has proposed to take corrective actions.
      and Reinvestment Act (Recovery Act) of 2009
      Dated November 4, 2010                                         Memorandum: Observations on IT Support Task
                                                                     Order for the Department of Homeland Security
      The Greater Southwest Region, Federal Acquisition              Consolidation at Saint Elizabeth’s
      Service, Acquisition Operations Division awarded a firm        Dated January 31, 2011
      fixed priced task order, valued at over $3.6 million for one
      base year and four one-year option periods. The task           We reviewed the award, protest and cancellation of a
      order provided for routine server maintenance and              $2.6 billion task order for campus-wide information
      support line services, which included software updates         technology (IT) infrastructure. This particular task
      and helpdesk services, to the Indian Health Services           order was for the Department of Homeland Security
      (IHS), Office of Information Technology.                       (DHS) Headquarters Consolidation project at the Saint
                                                                     Elizabeths campus in Washington, D.C. We conducted
      Subsequently, the Acquisition Operations Division              our review as part of our oversight responsibilities under
      awarded an Recovery Act-funded task order for software         the American Recovery and Reinvestment Act
      and security upgrades to servers valued at $661,870.           (Recovery Act).
      According to file documentation, this task order was
      established to modify the original task order for ARRA         We noted that: (1) the composition of the procurement
      monitoring purposes only. In addition, file documentation      team compromised the contracting officer’s ability to
      indicated the requirements of this Recovery Act funded         render independent determinations; (2) the contract
      task order were within the scope of the original task order.   lacked key elements needed to implement its cost
                                                                     sharing and price renegotiation features, undercutting
      We found that the Recovery Act-funded task order was           the Government’s goal of negotiating a firm-fixed price;
      inappropriately awarded because the requirements               (3) contract ceiling prices, and the cost estimates upon
      were outside the scope of the original task order, and         which they were based, were likely understated over the
      price reasonableness was not determined. There was             10-year period of performance; (4) parts of the award
      no documentation to support the contractor’s statement         were structured in a manner that introduced an
      of work or any to support a determination of price             avoidable risk and likely increased costs; and (5) GSA
      reasonableness concerning the $2 million pricing               created an obligation that exceeded its available funding
      proposal. As a result, the Government may not have             and may have violated the bona fide needs rule. We
      received best value.                                           provided our observations to management to help them
                                                                     formulate their re-compete strategy.
      Acquisition Operations Division Management
      (Management) acknowledged the Recovery Act-funded              This review was not an audit; fieldwork was limited to
      task order was incorrectly awarded as a firm fixed price       inquiries of GSA management and to a review of task
      task order/modification against FN750801T3. In                 order documentation. Neither a response nor a formal
      addition, Management recognized that: (1) a sole-              action plan was required.
      source justification to the contractor should have been
      approved for this requirement; (2) a price analysis of the     Other Initiatives
      proposal should have been performed; (3) a new
                                                                     We initiated a website for contractor self reporting and
      separate time & materials (T&M) task order should have
                                                                     internal procedures for evaluating such disclosures. Our
      been awarded; and (4) a justification for use of T&M
                                                                     action was in response to legislative measures
      should also have been prepared.




       10 Semiannual Report to the Congress
12497-02_SAR_rev7.qxd   5/5/11    11:09 AM   Page 11




                                                   Management Challenges



         Other Initiatives (continued)

         regarding the Federal Acquisition Regulation (FAR) rule          performance, or closeout of a government covered
         that requires government contractors to disclose to              contract performed by the contractor or a subcontract
         agencies’ OIGs credible evidence of violations of federal        awarded thereunder. The rule provides for the
         criminal law under Title 18, United States Code, or the          suspension or debarment of a contractor when a
         civil False Claims Act.                                          principal knowingly fails to timely disclose, in writing,
                                                                          such violations.
         FAR Rule for Contractor Disclosure
         Effective December 12, 2008, the Civilian Agency                 The GSA OIG established a website for contractor self-
         Acquisition Council and the Defense Acquisition                  reporting and GSA’s contractors may make the required
         Regulations Council agreed on a final rule amending the          disclosures through this website. Further, the OIG
         FAR to amplify the requirements for a contractor code of         developed internal procedures to process, evaluate, and
         business ethics and conduct, an internal control system,         act on any disclosures made by contractors. As
         and disclosure to the government of certain violations of        disclosures are made, the Office of Audits, Office of
         criminal law, violations of the civil False Claims Act, and      Investigations, and Office of Counsel to the Inspector
         significant overpayments. The final rule implements the          General work together examining each acknowledgment
         Close the Contractor Fraud Loophole Act, Public Law              and determine what actions are warranted.
         110–252, Title VI, and Chapter 1. Under the rule, a
         contractor must timely disclose credible evidence of a           Disclosures for this Reporting Period
         violation of federal criminal law involving fraud, conflict of   During this reporting period, the OIG received 9
         interest, bribery, or gratuity violations found in Title 18 of   disclosures. These disclosures included submission of
         the United States Code, or a violation of the civil False        inaccurate information on proposals (both intentional
         Claims Act. The disclosure must be made to the                   and unintentional); compliance failures; contractor
         relevant agency’s OIG in connection with the award,              employee fraud/inappropriate behavior; and overbillings.




                                                                                               October 1, 2010 – March 31, 2011 11
12497-02_SAR_rev7.qxd   5/5/11    11:09 AM    Page 12




                                        Promoting and Protecting Integrity



      GSA is responsible for providing working space for one million federal employees. The Agency also manages the
      transfer and disposal of excess and surplus real and personal property and operates a government-wide service and
      supply system. To meet the needs of customer agencies, GSA contracts for billions of dollars worth of equipment,
      supplies, materials, and services each year. We conduct reviews and investigations in all these areas to ensure the
      integrity of the Agency’s financial statements, programs, and operations, and that the taxpayers’ interests are
      protected. In addition to detecting problems in these GSA programs and operations, the OIG is responsible for
      initiating actions and inspections to prevent fraud, waste, and abuse and to promote economy and efficiency. When
      systemic issues are identified during investigations, they are shared with GSA management for appropriate corrective
      actions. During this period, criminal, civil, and other monetary recoveries totaled almost $246 million (see Tables 5
      and 6).

      Significant Civil Actions and Criminal                           of its GSA contract. Negotiations for this settlement were
                                                                       conducted jointly by representatives from the Department
      Investigations                                                   of Justice in Washington, D.C. and the U.S. Attorney’s
      GSA OIG Establishes Headquarters Unit to                         Office for the District of Columbia.
      Support Civil Recoveries
      Over the past few years, the Office of Investigations has        Oracle America Settles False Claims Charges for
      consolidated investigative efforts related to civil recoveries   $46 Million
      involving qui tam filings, Federal Acquisition Regulation
      (FAR) disclosures, and Trade Agreements Act violations           On January 31, 2011, Oracle America, Inc., agreed to pay
      in its Washington, D.C., field office. In recognition of the     the United States $46 million to resolve claims that Sun
      need to expand civil recovery efforts throughout its field       Microsystems, Inc. (which merged with Oracle in 2010),
      offices, the GSA OIG formalized this successful initiative       submitted and caused others to submit false claims to
      as a separate unit to make the greatest possible use of the      GSA and other federal agencies. The settlement resulted
      expertise the organization has gained through previous           from a qui tam investigation by the Philadelphia Audit
      successful investigations.                                       Office and the Washington, D.C., Investigations Office.
                                                                       Negotiations for this settlement were conducted jointly
      The unit now serves as a “one-stop shop” for expert              by representatives from the Department of Justice in
      information and advice that is necessary to conduct civil        Washington, D.C., and the U.S. Attorney’s Office for the
      investigations, and which contributed to the successes           Eastern District of Arkansas. The settlement resolves
      outlined below.                                                  claims under the False Claims Act and Anti-Kickback
                                                                       Act. Not only were Sun’s GSA schedule contracts for
      Verizon Communications Agrees to Pay $93.5 Million               1994 and 1997 defectively priced because Sun provided
      to Settle Government Claims                                      incomplete and inaccurate information to GSA contracting
                                                                       officers during contract negotiations, but Sun also paid
      On February 18, 2011, Verizon Communications, Inc.,              kickbacks to systems integrator companies in return for
      agreed to pay the United States $92.7 million plus interest      recommendations that federal agencies purchase Sun
      to settle the government’s claim that Verizon submitted          products.
      false claims for payment of certain taxes and charges
      under its GSA contract for telecommunications services for       Black Box Agrees to Pay $2.85 Million to Settle False
      the time period between April 20, 2004, and September            Claims Act Allegations
      30, 2010. Verizon immediately paid $93,525,410.96 to the
      United States Treasury. This investigation, which was            On March 8, 2011, Black Box Corporation, a GSA
      conducted by the Kansas City Audit Office and the                contractor, agreed to pay $2.85 million to the U.S.
      Washington, D.C., Investigations office, was initiated after     Government to settle the alleged False Claims Act
      a qui tam complaint was filed alleging that Verizon had          violations in connection with its GSA Multiple Award
      defrauded the United States by intentionally applying            Schedule contract between December 1998 and
      taxes, fees, and surcharges in contravention of the terms        December 2003. This investigation, which was a


       12 Semiannual Report to the Congress
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM   Page 13




                                         Promoting and Protecting Integrity



         Significant Civil Actions and Criminal Investigations (continued)

         collaborative effort between the Philadelphia field            Strategic Partnership with ICE to Protect
         investigations office and the GSA OIG Office of Audits,        Government Infrastructure Yields Results
         revealed that Black Box failed to provide “volume order”       The GSA OIG’s Office of Investigations has in recent
         discounts and promotional pricing, and failed to waive or      years observed a rise in the number of investigations
         otherwise properly bill freight charges. As a result, Black    involving the introduction of counterfeit products into the
         Box did not bill various Federal agencies in connection with   government supply chain. Such investigations often
         the ordering of general-purpose commercial information         involve counterfeit software and information technology
         technology equipment, software, and services as required       products which create a significant vulnerability for the
         by its GSA contract.                                           government’s infrastructure.

         Lockheed Martin Agrees to Pay $2 Million to Resolve            As reported in our previous Semiannual Report, the
         False Claims Allegations                                       GSA OIG foresaw the need to better protect government
                                                                        purchasers from the dangers associated with the
         On January 24, 2011, Lockheed Martin, Inc. (Lockheed),         deployment of counterfeit goods, and created the
         agreed to pay the U.S. Government $2 million to resolve        Government Infrastructure Protection Initiative (GIPI) in
         allegations that it violated the False Claims Act by           strategic partnership with the Intellectual Property
         submitting or causing the submission of false claims, and      Rights Center operated by Immigration and Customs
         conspiring to submit false claims, under a contract with       Enforcement (ICE). This unique partnership facilitates
         GSA in the support of the Naval Oceanographic Major            the identification of unscrupulous suppliers to more
         Shared Resource. The contract, awarded in April 2004,          efficiently protect government buyers.
         was to provide support services for the National Center for
         Critical Information Processing and Storage (NCCIPS) at        On December 17, 2010, GSA OIG and ICE Homeland
         the Stennis Space Center in Mississippi. GSA awarded           Security Investigations (ICE HSI) Special Agents arrested
         the contract to Science Applications International             a U.S. citizen at JFK International Airport upon his arrival
         Corporation (SAIC), which teamed with Lockheed and             in the United States on a flight from China. The arrest
         Applied Enterprise Solutions (AES) to perform the              follows a 29 count indictment in the Eastern District of
         task order.                                                    Virginia of four subjects, two of whom were Chinese
                                                                        nationals, which resulted from a joint investigation
         This settlement is the result of a GSA OIG Atlanta field       conducted by the GSA OIG and ICE HSI. The
         office qui tam investigation that was conducted in             indictment charged various federal conspiracy, money
         collaboration with Defense Criminal Investigative Service      laundering, wire fraud, immigration fraud, and
         and the Naval Criminal Investigative Service.                  intellectual property rights violations.

         Divine Imaging to Pay the U.S. $1.5 Million                    Previously, ICE HSI agents initiated an investigation of
                                                                        the group after Customs and Border Protection officers
         On February 28, 2011, Divine Imaging, Inc., agreed to pay      discovered counterfeit Cisco equipment being imported
         the United States $1.5 million to resolve False Claims         for ultimate sale to GSA suppliers and at least one U.S.
         Act allegations. An investigation by the GSA OIG               government agency from a company based in Beijing,
         Headquarters Civil Recoveries Branch had revealed that         China. The subsequent joint investigation revealed that
         Divine Imaging knowingly represented that the products it      the vendor in the United States was a naturalized U.S.
         sold under government contracts were manufactured in           citizen from China, who was using several addresses in
         the United States or other countries designated under          northern Virginia to conduct business. A search warrant
         the Trade Agreements Act, when they were in fact               executed at the residence of the vendor resulted in the
         manufactured in non-designated countries, including the        seizure of additional counterfeit equipment, along with
         People’s Republic of China.



                                                                                              October 1, 2010 – March 31, 2011 13
12497-02_SAR_rev7.qxd    5/5/11   11:09 AM    Page 14




                                        Promoting and Protecting Integrity



      Significant Civil Actions and Criminal Investigations (continued)

      sales invoices and various other documents. Subsequent            to falsely represent to the Committee for Purchase from
      analysis of those documents confirmed the company                 People Who Are Blind or Severely Disabled that the
      supplied counterfeit Cisco products directly to the               NCED’s handicapped workforce performed over 75
      government and to a number of GSA suppliers.                      percent of government contract work, as required for
                                                                        NCED to secure no-bid contracts under the Javits-
      In connection with another counterfeit products                   Wagner-O’Day Act. The defendants then converted the
      investigation, Babak Shirazi pleaded guilty to federal            earnings gained through these contracts for personal
      trafficking in counterfeit goods violations on February 15,       use, including the purchase of two pieces of property in
      2011. This pleading was the result of a joint investigation       El Paso, Texas.
      conducted by the GSA OIG, ICE and the Department of
      Interior OIG, which revealed that Shirazi purchased               Contractor Sentenced After Bilking GSA out of
      counterfeit Cisco computer parts abroad, imported them            $1.8 million
      into the United States, and subsequently sold them to a           On January 21, 2011, former GSA contractor Nicole
      GSA Multiple Award Schedule (MAS) vendor for sale. As             Smith was sentenced by a United States District Court
      a result of Shirzazi’s scheme, the vendor unwittingly sold        in the District of Columbia to 20 months of incarceration,
      $27,000 of counterfeit parts to the Bureau of Land                three years of supervised release and 400 hours of
      Management through GSA’s MAS.                                     community service, and ordered to pay $1,885,650 in
                                                                        restitution. This sentence follows Smith’s October 28,
      A Former Executive of a Charitable Organization                   2010, guilty plea to one count of theft of government
      Found Guilty and Sentenced, Two Other Former                      property stemming from the creation of fraudulent task
      Executives Sentenced                                              orders to her company, NTT Consulting, LLC.
      On March 29, 2011, Ernesto Lopez, the former Chief
      Operations Officer for the National Center for the                GSA OIG began investigating Smith after receiving a
      Employment of the Disabled (NCED), was sentenced to               Hotline allegation that she was using her access to GSA
      three years of incarceration and three years of supervised        facilities and computer systems to write fraudulent
      release, and ordered to pay $3,829,834 in restitution.This        contracts and defraud the Agency. The investigation
      sentence follows his October 18, 2010, conviction for             revealed that Smith began using her position and access
      federal conspiracy to make false statements and fraud             to GSA controlled databases in 2004 to create fictitious
      violations after a jury trial in the Western District of Texas.   task orders (which she tied to legitimate task orders) to
                                                                        fraudulently bill GSA for services totaling $1,885,650.
      Previously, on February 17, 2011, Robert Jones, the
      former Chief Executive Officer and President of NCED,             Former GSA Contractors Sentenced for
      was sentenced to ten years of incarceration and five years        Conspiracy to Defraud the Government
      of supervised release, and ordered to pay $58,265,842 in          On January 7, 2011, Jeffrey Blake, former owner of M &
      restitution, for his role in the scheme to embezzle               A Supply, was sentenced to 14 months in federal prison
      government program funds. Also on that date, Patrick              followed by three years of federal probation for his role in
      Woods, a former NCED board director, was sentenced to             a conspiracy to commit fraud against the government
      three years in federal prison and three years of supervised       through an M & A Supply GSA schedule contract. Blake’s
      release, and ordered to pay $1,714,139 in restitution, for        sentencing followed the November 5, 2010, sentencing
      federal conspiracy violations stemming from his part in the       of Michael Morand, a former independent contractor for
      scheme to embezzle federal program funds.                         M & A Supply, to five years of federal probation for his
                                                                        role in the false claims conspiracy. Both defendants were
      These sentences follow a GSA OIG investigation that               also ordered to pay joint restitution in the amount of
      revealed that between 2003 and 2006, the trio conspired




       14 Semiannual Report to the Congress
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM   Page 15




                                         Promoting and Protecting Integrity



         Significant Civil Actions and Criminal Investigations (continued)

         $225,213 to the government.The sentencing was based           Exchange Commission alleging that the company
         upon previous guilty pleas of both defendants for their       engaged in accounting fraud between 2000 and 2003.
         role in a conspiracy to submit false freight invoices
         related to a GSA schedule contract. The joint GSA OIG         CBP Officer Debarred After Conviction for Alien
         and Defense Criminal Investigative Service investigation      Smuggling and Bribery
         identified numerous questionable invoices for products        On November 5, 2010, Jose Carmello Magana, a former
         sold to the government, including the false freight           Customs and Border Protection officer, was debarred
         invoices for shipping those products.                         from doing business with the Government for four years
                                                                       by the ICE Suspension and Debarment Official. GSA
         IT Vendor Sentenced for Providing False                       OIG has also begun exclusion proceedings against
         Specification and Country of Origin Information in            Magana on the basis of his guilty plea to federal alien
         Conjunction with Sale of its Products                         smuggling and bribery charges, for which he was
         On January 10, 2011, Alan Shad, the owner of Rugged           sentenced to 37 months of incarceration, three years of
         Notebooks, was sentenced to two 12-month terms of             supervised release, and payment of a $4,000 fine.
         concurrent probation, a fine of $3,600 ($1,800 per count),
         and a special assessment fee of $100. The sentence            Former Commander of AFMSA Pleads Guilty to
         resulted from a joint investigation conducted by GSA          Misprision of Felony
         OIG, the Defense Criminal Investigative Service, and the      On January 27, 2011, the United States Attorney’s Office
         Air Force Office of Special Investigations, which revealed    for the Western District of Texas filed an information that
         that Shad and his employees at Rugged Notebooks               charged Sidney Brandler with misprision of a felony.
         falsified the country of origin information for the laptops   Under the terms of the previously arranged plea
         his company sold to the government through the GSA            agreement, Brandler immediately pleaded guilty to the
         schedule. Shad and his company also misrepresented            charge. This plea follows an investigation that was
         the specification data for some of those laptops they sold.   previously initiated based upon a GSA OIG audit of
         On November 10, 2010, the U.S. Air Force debarred             GSA’s Federal Technology Service Client Support
         Shad and Rugged Notebooks from conducting business            Centers which disclosed irregularities that were referred
         with the Government for five years.                           to the Office of Investigations for review. The ensuing
                                                                       investigation, conducted in conjunction with the U.S. Air
         Nortel Networks Corporation and Nortel Networks,              Force’s Office of Special Investigations, revealed that
         Ltd., Debarred as the Result of Cooperative Effort            Brandler served as the former commander of the Air
         with SEC                                                      Force Medical Support Agency and held a financial
         On December 9, 2010, the GSA Office of Acquisition            interest in EDI, a pass-through company. Brandler’s
         Integrity issued a Notice of Debarment to Nortel Networks     business partner was the contract program manager
         Corporation and Nortel Networks, Ltd. (collectively           responsible for making the recommendation of
         “Nortel”), for the time period of December 9, 2010 through    companies to which GSA should award task orders.
         October 12, 2013. At the time of the debarment, GSA had
         existing contracts with Nortel under the General Purpose      Conspirator Sentenced for Role in Television Theft
         Commercial Information Technology Equipment, Software,        On February 22, 2011, Colin Michael Fry pleaded guilty
         and Services contracts, a Financial and Business              to federal theft violations and was subsequently
         Solutions (FABS) contract; and a Mission Oriented             sentenced to three years of probation and ordered to
         Business Integrated Services (MOBIS) contract. The            pay the government restitution of $3,500 and a special
         debarment was initiated when the GSA OIG received             assessment of $100. The sentence resulted from a plea
         information that Nortel paid $35 million to the U.S.          agreement in which Fry pleaded guilty to the theft
         Government to settle a lawsuit filed by the Securities and




                                                                                             October 1, 2010 – March 31, 2011 15
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM     Page 16




                                      Promoting and Protecting Integrity



      Significant Civil Actions and Criminal Investigations (continued)

      violation after a joint investigation by the GSA OIG and      Guilty Plea in Fleet Card Investigation
      the Federal Protective Service revealed he and two            On February 9, 2011, Chaz Mathis pleaded guilty to
      others were responsible for the theft of numerous             federal theft and aiding and abetting violations after a
      plasma televisions from the Chet Holifield Federal            GSA OIG investigation revealed his fraudulent use of a
      Building in Laguna Niguel, California.The prosecution of      government WEX credit card assigned to the U.S. Navy
      Fry’s two co-conspirators is pending.                         Earle Naval Weapons Station in Colts Neck, New Jersey.
                                                                    Mathis is scheduled to be sentenced in May 2011.
      Motor Pool Contractor and Husband Charged in
      Scheme to Defraud Government of $300,000                      Staff Sergeant Demoted Two Grades for Improper
      On February 16, 2011, the GSA OIG and FBI Special             Use of Army Fleet Card
      Agents arrested a U.S. Army contractor who worked at          On January 21, 2011, U.S. Army Staff Sergeant Vincent
      Fort Monroe in Hampton, Virginia, on charges of federal       Dotson, assigned to Fort Hunter Liggett in California,
      wire fraud, conspiracy to commit wire fraud, theft, and       pleaded guilty to Uniform Code of Military Justice theft
      false statements, for which the contractor and her            violations after a general court martial. Dotson was
      husband had been indicted on February 7, 2011. These          sentenced to a reduction in grade from E-6 to E-4 and
      enforcement actions were the result of a proactive GSA        ordered to forfeit $7,200 in pay and pay the GSA $1,500
      OIG investigation that identified numerous suspicious         in restitution. This sentence resulted from a joint
      purchases made at gas stations in the Hampton, Virginia,      investigation by the GSA OIG and the U.S. Army Criminal
      area. Analysis of those purchases led to the identification   Investigation Division that revealed Dotson misused a
      and arrest of the contractor’s husband on June 22, 2010,      Government vehicle and the corresponding GSA Fleet
      after agents observed him using multiple Wright Express       WEX credit card over an extended period of time, causing
      (WEX) credit cards to fuel non-government vehicles. As        a loss to the Government of approximately $8,800.
      the result of the arrest, investigators seized four WEX
      credit cards which were traced back to his wife, who was      Contractor for United States Army Sentenced for
      in control of the vehicle credit cards in the Fort Monroe     Wright Express Credit Card Fraud
      Motor Pool office. The estimated fraud loss in this case is
                                                                    On November 16, 2010, Stephen Hunter, a civilian
      approximately $298,780.
                                                                    United States Army contract worker employed at the
                                                                    Fort McPherson and Fort Gillem military bases, was
      Fleet Card Fraud Investigation Reveals Overtime
                                                                    sentenced to six months in jail, two years of probation, a
      Fraud
                                                                    $200 fine, and $168.28 in restitution after pleading guilty
      On December 20, 2010, Ross Kelly, former Amtrak Track         to three felony counts of financial transaction card fraud
      Inspector, pleaded guilty to federal theft violations and     under Georgia law. The sentence is the result of a GSA
      was sentenced to six weeks of home detention with             OIG investigation into the fraudulent use of multiple
      electronic monitoring and two years of probation, and         WEX credit cards assigned to GSA vehicles at Fort
      ordered to pay $8,000 in restitution, for his fraudulent      McPherson and Fort Gillem. The investigation revealed
      use of a government WEX credit card that was assigned         that Hunter was using multiple WEX credit cards at
      to Amtrak. This conviction was a result of a joint GSA        various gas stations throughout the Atlanta metropolitan
      OIG and Amtrak OIG investigation that disclosed Kelly         area to fuel personal vehicles. Hunter gained access to
      used the GSA WEX credit card assigned to his Amtrak           the credit cards at the military bases through his
      vehicle to fraudulently purchase over $2,000 worth of         employment as a contractor employee.
      fuel for his personal vehicle. The investigation also
      revealed that Kelly had fraudulently claimed overtime         National Park Service Employee Charged in Fleet
      that was never actually worked. The restitution ordered       Card Fraud
      by the court included the WEX credit card fraud as well
                                                                    On January 11, 2011, a National Park Service (NPS)
      as Kelly’s overtime fraud.
                                                                    maintenance worker pleaded guilty to federal theft


       16 Semiannual Report to the Congress
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM   Page 17




                                         Promoting and Protecting Integrity



         Significant Civil Actions and Criminal Investigations (continued)

         violations. Previously, on November 4, 2010, the United       To this end, the GSA OIG continued its campaign to
         States Attorney’s Office filed an information in the U.S.     more widely publicize our recovery efforts, and was
         District Court of Massachusetts charging the NPS              featured in several print articles, a D.C. area cable news
         employee with federal theft violations. The filing was the    program interview of Inspector General Brian D. Miller,
         result of a GSA OIG investigation that was initiated after    and the release of a GSA-produced video documentary
         GSA Fleet Management identified several suspicious            detailing our efforts, entitled Returning America’s Art to
         WEX fleet credit card transactions. Subsequent                America. This documentary earned a Telly Award in the
         investigation revealed the WEX credit cards were used         government relations category. Further, the Public
         by the NPS employee to unlawfully purchase fuel for           Television program, The Antiques Road Show filmed a
         several privately owned vehicles. The employee was            segment concerning our recovery efforts that will be
         interviewed and admitted to making the purchases. The         aired sometime during the summer of 2011. As a direct
         investigation determined the employee made over               result of our outreach efforts, the GSA OIG has
         $10,000 in unauthorized purchases since 2000.                 observed an increase in the numbers of reports relating
                                                                       to WPA artwork improperly remaining in public hands.
         Fort Bragg Contractor Employee Arrested for
         Fraudulent use of Wright Express Credit Card                  On November 23, 2010, the GSA Fine Arts Program
         On October 13, 2010, a civilian contractor employee that      Office received the WPA era painting Before the Storm.
         worked for the United States Army at Fort Bragg was           This recovery began in June 2010 after the GSA OIG
         arrested while using a WEX fleet credit card to fuel          received information that the painting was being auctioned
         privately owned vehicles. The contractor was charged          on eBay.com with a “buy it now” price of $30,000. The
         with felony financial card theft and fraud violations under   listing contained photographs and descriptions of
         North Carolina law in the Superior Court of Cumberland        Federal Works Agency labels and markings. GSA OIG
         County. Subsequent interviews yielded his admission to        agents subsequently contacted eBay and the auction
         using the credit cards to fuel privately owned vehicles for   was terminated. The painting was returned to the
         several acquaintances and strangers in exchange for           government in October 2010.
         cash.The investigation leading to this enforcement action
         was initiated after it was reported that multiple same-day
         purchases of gasoline were being made on two WEX
         credit cards assigned to GSA vehicles at Fort Bragg,
         North Carolina. The subsequent GSA OIG investigation
         captured videos of the individual using the WEX cards to
         purchase fuel for several privately owned vehicles at gas
         stations in Fayetteville, North Carolina.

         GSA OIG Expands American Cultural Property
         Recovery Efforts
         GSA is the custodian of the many works of art produced
         through the Works Progress Administration (WPA). Since
         the United States commissioned countless pieces of art
         during the New Deal era, many precious historical pieces
         have unlawfully made their way into the marketplace and
                                                                       “Before the Storm”
         collectors’ hands.The OIG continued to work closely with
         the Public Buildings Service’s Fine Arts Program (FAP)
                                                                       On December 29, 2010, the GSA OIG was contacted by
         Office to identify and recover lost and stolen American
                                                                       a citizen from Salinas, California, and asked to verify the
         cultural property produced at government expense
                                                                       status of a watercolor painting that had been in her
         during the New Deal era.


                                                                                             October 1, 2010 – March 31, 2011 17
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM     Page 18




                                      Promoting and Protecting Integrity



      Significant Civil Actions and Criminal Investigations (continued)

      possession for 11 years. A GSA OIG special agent            a federal agency. The Federal Acquisition Regulation
      subsequently verified that the painting was the             authorizes an agency to suspend or debar individuals or
      watercolor, Trees, Golden Gate Park by artist John          companies for the commission of any offense indicating
      Holland. The GSA OIG negotiated its return to the care      a lack of business integrity or business honesty that
      and custody of the government. It has an approximate        directly affects the present responsibility of a
      value of $1,200 and carries a significant historic value.   government contractor or subcontractor. The OIG has
                                                                  made it a priority to process and forward referrals to
                                                                  GSA, so GSA can timely ensure that the government
                                                                  does not award contracts to individuals or companies
                                                                  that lack business integrity or honesty.

                                                                  During this reporting period, the OIG made 112 referrals
                                                                  for consideration of suspension/debarment to the GSA
                                                                  Office of Acquisition Policy. GSA issued 58 suspension
                                                                  and debarment actions based on current and previous
                                                                  OIG referrals.

                                                                  Integrity Awareness
      Trees, Golden Gate Park
                                                                  The OIG presents Integrity Awareness Briefings
                                                                  nationwide to educate GSA employees on their
      On January 27, 2011, 11 pieces of WPA-era American
                                                                  responsibilities for the prevention of fraud and abuse and
      cultural property were returned to the care and custody
                                                                  to reinforce employees’ roles in helping to ensure the
      of the Government from a library in Highland Park,
                                                                  integrity of Agency operations. This period, we
      Michigan, to which these pieces were on loan. The GSA
                                                                  presented 32 briefings attended by 287 regional and
      OIG special agents met with representatives from the
                                                                  Central Office employees. These briefings explain the
      city and negotiated temporary return of the artwork,
                                                                  statutory mission of the OIG and the methods available
      which will be cataloged and conserved by the FAP. The
                                                                  for reporting suspected instances of wrongdoing. In
      pieces include: Gretel, Wood Carving by F. Crauwels;
                                                                  addition, through case studies, the briefings make GSA
      Heidi, Wood Carving by F. Crauwels; Peter Pan, Wood
                                                                  employees aware of actual instances of fraud in GSA
      Carving by F. Crauwels; Robin Hood, Wood Carving by
                                                                  and other federal agencies and thus help to prevent their
      F. Crauwels; Tiny Tim, Wood Carving by F. Crauwels;
                                                                  recurrence. GSA employees are the first line of defense
      Walt Whitman, Etching by Leo A. McMillian; Woods,
                                                                  against fraud, abuse, and mismanagement. They are a
      Watercolor by David Fredenthal; Autumn, Watercolor by
                                                                  valuable source of successful investigative information.
      David Fredenthal; La Bella Donna, Oil on Canvas by F.H.
      Hayword; Boy on Horse – artist unknown; and Doves,
      Figurine by Howard Whelan.                                  Hotline
                                                                  The OIG Hotline provides an avenue for employees and
      Suspension and Debarment Initiative                         other concerned citizens to report suspected
                                                                  wrongdoing. Hotline posters located in GSA-controlled
      GSA has a responsibility to ascertain whether the
                                                                  buildings encourage employees to use the Hotline. We
      people or companies it does business with are eligible to
                                                                  also use our FraudNet Hotline platform to allow Internet
      participate in federally-assisted programs and
                                                                  reporting of suspected wrongdoing. During this reporting
      procurements, and that they are not considered
                                                                  period, we received 1,585 Hotline contacts. Of these
      “excluded parties.” Excluded parties are individuals and
                                                                  contacts, 219 Hotline cases were initiated. In 95 of these
      companies debarred, suspended, proposed for
                                                                  cases, referrals were made to GSA program officials for
      debarment, or declared ineligible to receive contracts by
                                                                  review and action as appropriate, 49 were referred to


       18 Semiannual Report to the Congress
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM   Page 19




                                         Promoting and Protecting Integrity



         Hotline (continued)

         other Federal agencies for follow up, 69 were referred for    During the current period, the OIG Office of Forensic
         OIG criminal/civil investigations or audits, and 6 did not    Auditing reviewed the GSA Headquarters Parking
         warrant further review.                                       Program. The review focused on the assignment of
                                                                       employee parking spaces used for privately owned
         Inspections and Evaluations                                   vehicles. The review identified issues regarding
                                                                       compliance with the Federal Management Regulation,
         Inspections afford a flexible mechanism for optimizing        GSA internal policy, and Office of Management and
         resources by utilizing a multidisciplinary staff, expanding   Budget Memorandum M-07-17.
         coverage, and using alternative review methods and
         techniques. The inspection process evaluates, reviews,        Specifically, the review identified (i) assignment of
         studies or analyzes the Agency’s programs and activities      parking permits by program administrators outside of
         to provide factual and analytical information, monitor        policy; (ii) undocumented modifications to parking space
         compliance, measure performance, assess the                   assignment policy and procedures; (iii) qualified carpool
         efficiency and effectiveness, share best practices, and       applicants rejected; and (iv) insufficient oversight and
         inquire into allegations of fraud, waste, abuse, and          enforcement of parking policies and procedures.
         mismanagement.




                                                                                            October 1, 2010 – March 31, 2011 19
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM     Page 20




                                      Government-wide Policy Activities



      We regularly provide advice and assistance on government-wide policy matters to the Agency, as well as to other
      federal agencies and to committees of Congress. In addition, as required by the Inspector General Act of 1978, we
      review existing and proposed legislation and regulations to determine their effect on the economy and efficiency of
      the Agency’s programs and operations and on the prevention and detection of fraud and mismanagement. Because
      of the central management role of the Agency in shaping government-wide policies and programs, most of the
      legislation and regulations reviewed invariably affect government-wide issues in areas such as procurement, property
      management, travel, and government management and information technology systems.

      Interagency Committees and Working                           GSA Inspector General Brian Miller and Department of
                                                                   the Treasury Inspector General Eric Thorson co-chair
      Groups                                                       the Working Group’s Public/Private Sector Outreach
      We participated in a number of interagency committees        Committee, which enlists participation by private sector
      and working groups that address government-wide              and public sector stakeholders in collective efforts
      issues that cut across agency lines:                         to prevent fraud more effectively in government
                                                                   procurement.
      • Council of the Inspectors General on Integrity and
        Efficiency (CIGIE). The IG is a member of the              This reporting period saw the addition of new state and
        Investigations Committee, Professional Development         local officials and private sector individuals to the
        Committee, and Homeland Security Roundtable.               Committee’s expanding network through regional
                                                                   outreach discussions and meetings of the Association
         o Federal Audit Executive Council Contracting             of Inspectors General, National Contract Management
           Committee. The Assistant Inspector General for          Association, and local “STOP Fraud Task Force”
           Auditing and the Deputy Assistant Inspector             members.
           General, Acquisition Programs Audit Office,
           participate in the Federal Audit Executive Council      The GSA OIG has initiated a quarterly report of
           Contracting Committee, created in December              criminal convictions and civil settlements involving
           2007. This Committee provides a forum to share          individuals and companies doing business with GSA,
           information about and coordinate reviews of             making them eligible for suspension and debarment
           significant contracting and procurement issues of       from federal contracts. Committee network partners
           interest to the IG community and the Federal            are encouraged to share their data to increase the
           Government as a whole. The Committee also               odds of uncovering and deterring fraudulent behavior
           develops and recommends best practices to be            government-wide. The GSA OIG has also developed
           used by IGs in addressing contracting issues.           an interactive map promoting state and local fraud
                                                                   databases.
      • Recovery Accountability and Transparency Board
        Working Group (Recovery Working Group): Public/           • Regional Procurement Fraud Working Group. The
        Private Sector Outreach Committee The U.S.                  Special Agent in Charge and the Regional Inspector
        Department of Justice’s Financial Fraud Enforcement         General for Auditing in our Heartland Region Office
        Task Force and its Recovery Act Procurement Fraud           participate in the quarterly meetings of the Western
        Working Group aim to collaborate efforts across the         District of Missouri and Kansas Regional Procurement
        federal government and with state and local partners to     Fraud Working Group. The goal of the Working Group
        investigate and prosecute significant financial crimes      is to detect, prevent, and prosecute procurement fraud.
        and to address financial discrimination in the lending      The meetings are chaired by the Chief of the Fraud and
        and financial markets. Involving local and state            Corruption Unit of the U.S. Attorney’s Office for the
        governments, as well as the private sector, will expand     Western District of Missouri, and attended by
        the Working Group’s ability to bring important              investigators, agents, and auditors from various federal
        perspectives to the challenges of fighting fraud.           government agencies. Members of this group include
                                                                    representatives from the Department of Justice, the


       20 Semiannual Report to the Congress
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM   Page 21




                                         Government-wide Policy Activities



         Interagency Committees and Working Groups (continued)

          Regional Field Office of the Federal Bureau of              audit, inspection, evaluative, and investigative work. The
          Investigation, and the Region’s Offices of Inspectors       OIG also made substantive comments on several
          General. In addition to improving contact between           proposed laws and regulations.
          agencies and the U.S. Attorneys’ Offices, these
          meetings have resulted in innovative methods to             On February 1, 2011, the Inspector General testified
          identify and prosecute fraud, and have resulted in the      before the Ad Hoc Subcommittee on Contracting
          development of collaborative cases between different        Oversight of the Senate Committee on Homeland
          government agencies.                                        Security and Governmental Affairs about contract
                                                                      audits. This hearing examined how federal agencies use
         • TeamMate Technical Support Group. Our TeamMate             contract audits to detect and prevent waste, fraud, and
           Technical Support Group participates in the TeamMate       abuse in government contracts. In particular, the hearing
           Federal Users Group and the CCH TeamMate Users             reviewed the findings of the Subcommittee’s ongoing
           Group to discuss concerns and new challenges facing        investigation of the type and number of contract audits
           TeamMate users. TeamMate is an automated audit             at federal agencies. The hearing also examined the role
           workpaper management system that strengthens the           played by the Defense Contract Audit Agency (DCAA) in
           audit process and increases the efficiency of our          performing contract audits for agencies other than the
           auditors.                                                  Department of Defense.

         • Interagency Fraud and Risk Data Mining Group               On March 1, 2011, the Inspector General testified before
           (IFRDMG). The IFRDMG collaborates the efforts of           the Ad Hoc Subcommittee on Contracting Oversight of
           investigators and auditors across the federal Inspector    the Senate Committee on Homeland Security and
           General community for the purpose of sharing best          Governmental Affairs about a Bannister Federal
           practices and evaluating the latest data mining and risk   Complex public relations contract. This hearing
           modeling tools and techniques to detect emerging risks     examined contracts for public relations services at GSA
           and patterns.                                              and other federal agencies. In particular, the hearing
                                                                      reviewed findings from the OIG’s February 18, 2011,
         Legislation, Regulations, and                                audit memorandum regarding contracts valued at
                                                                      $235,000 that were awarded to Jane Mobley Associates,
         Subpoenas                                                    Inc. (JMA) to assist GSA with responding to media and
         During this reporting period, the OIG reviewed legislative   government agency investigations related to the
         matters and proposed regulations as well as commented        environmental and health concerns at the Bannister
         on agency directives.We also responded to requests from      Federal Complex in Kansas City. The hearing also
         Congressional members on behalf of their constituents.       reviewed the results of the Subcommittee’s ongoing
         Additionally, we issued 36 subpoenas in support of our       investigation into the JMA contract.




                                                                                            October 1, 2010 – March 31, 2011 21
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM     Page 22




                                        Professional Assistance Services



      Government Auditing Standards prohibit federal audit organizations (such as the OIG’s Office of Audits) from performing certain
      types of management consulting projects because participation in such projects could impair the auditor’s independence when
      performing subsequent audit work in the same area.To ensure compliance with the standards, we carefully assess our services
      when working closely with GSA management on non-audit projects.As allowed for under the standards, we participate in Agency
      improvement task forces, committees, and working groups in an observer or advisor capacity.

      Task Forces, Committees, and Working                               request reviews of individual vendors. It also focuses
                                                                         on issuing guidance to COs regarding negotiation
      Groups                                                             objectives and how to handle discrete MAS negotiation
      The OIG provides advice and counsel to GSA while                   issues. The Working Group also provided input to FAS
      monitoring ongoing Agency initiatives. Our representatives         to support its efforts to upgrade and enhance pricing
      advise management of potential problems at the earliest            performance measures on MAS contracts.
      possible opportunity. Our purpose is to help ensure that
      appropriate management controls are in place when
      installing new, or modifying existing, Agency systems,
                                                                       Evaluation & Analysis
      and to offer possible solutions when addressing complex          • Management Evaluations. The OIG Office of Evaluation
      financial and operational issues.                                  & Analysis (OEA) conducts operational assessments of
                                                                         OIG field offices and other operating components. During
      Our participation with the Agency on task forces,                  the reporting period, OEA began the Federal Managers
      committees, and working groups—typically as nonvoting              Financial Integrity Act (FMFIA) five-year internal control
      advisory members—allows us to contribute our expertise             review. OEA also assisted the OIG Office of Investigations
      and advice, while improving our familiarity with the               on an internal affairs investigation during the reporting
      Agency’s rapidly changing systems. However, the nature             period.
      of our involvement does not preclude our ability to
      independently audit and review Agency programs.                  • Office of Forensic Auditing. The Office of Forensic
                                                                         Auditing (Forensic Auditing) employs innovative auditing
      During this period we were involved with:                          and investigative techniques to detect fraudulent or
                                                                         abusive conduct within Agency operations and programs.
      • The Multiple Award Schedule Working Group. This                  It develops evidence that meets the admissibility
        group was established as a result of an OIG report               standards for prosecution in federal courts.
        released in August 2001 on Multiple Award Schedule
        (MAS) pricing practices. Its membership is primarily             During this period, Forensic Auditing conducted
        comprised of representatives from the Federal                    operations that led to the referral of six individuals to
        Acquisition Service (FAS) and the OIG, along with                the Office of Investigations for further examination, and
        representatives from the Office of the Chief Acquisition         referred an additional individual to the Department of
        Officer and ad hoc members from other GSA                        Labor OIG for further examination. Forensic Auditing
        components. It serves as an effective communications             issued an advisory memorandum to the Office of
        channel for both broad policy issues and specific                Audits identifying data integrity issues in the GSA
        matters having to do with particular contracts or                transit benefits records system. Forensic Auditing also
        reviews. The Working Group has focused on OIG                    concluded a limited review of the GSA Headquarters
        preaward attestation engagements, as well as MAS                 Parking Program, initiated four proactive reviews
        negotiations issues. It has also developed guidance to           focusing on Agency operations, and continued data
        MAS contracting officers (COs) regarding how best to             mining and data analysis efforts in support of joint
        use our attestation engagements. Further, it has                 activities with Office of Investigations.
        reinvigorated the process by which FAS and the OIG
        collaboratively select and commence preaward                   • Statistical Support for OIG Audits and Investigations.
        attestation engagements of vendors, and has built into           The Office of Evaluation & Analysis continued to
        this process a specific mechanism to allow COs to                provide assistance in statistical sampling and data
                                                                         analysis to the OIG auditors and investigators. Effort

       22 Semiannual Report to the Congress
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM    Page 23




                                            Professional Assistance Services



         Evaluation & Analysis (continued)

          was directed to the development of standardized data        and sample designs were also developed focusing on
          analysis protocols for the review of regional office        topics ranging from pricing to discounts received for
          investigative and audit units. Historical operational and   purchases. A sample of procurement transactions
          performance data from across the regional offices were      was also designed for use by a U.S. Attorney’s Office
          assembled to produce integrated assessments in              as a part of litigation involving a major federal
          support of field reviews. As needed during this period,     contractor. In addition, OEA statistical staff has served
          OEA applied statistical methods to a variety of areas of    as consultants to an examination of “green” initiatives,
          concern including assessments of the quality and            particularly focusing on usage of fleet vehicles, and
          completeness of procurement data, suspension and            has provided assistance in responding to information
          debarment data, and small business data. Sampling           and congressional requests.




                                                                                          October 1, 2010 – March 31, 2011 23
12497-02_SAR_rev7.qxd    5/5/11    11:09 AM     Page 24




                               Statistical Summary of OIG Accomplishments



      Reports Issued                                                        well as the status of those reports as of March 31, 2011.
                                                                            Table 1 does not include one implementation review that
      The OIG issued 58 reports. The 58 reports contained
                                                                            was issued during this period because they are excluded
      financial recommendations totaling $173,184,658 including
                                                                            from the management decision process. Table 1 also
      $157,393,262 in recommendations that funds be put to
                                                                            does not include three reports excluded from the
      better use and $15,791,396 in questioned costs. Due to
                                                                            management decision process because they pertain to
      GSA’s mission of negotiating contracts for government-
                                                                            ongoing investigations. Furthermore, this table does not
      wide supplies and services, most of the savings from
                                                                            include $93.5 million in cost recoveries resulting from a
      recommendations that funds be put to better use would be
                                                                            settlement agreement with Verizon.
      applicable to other Federal agencies.

      Management Decisions on Reports
      Table 1 summarizes the status of the universe of reports
      requiring management decisions during this period, as




                                Table 1. Management Decisions on OIG Reports

                                                                                         Reports with                     Total
                                                                  Number of               Financial                     Financial
                                                                   Reports            Recommendations*              Recommendations
          For which no management decision
          had been made as of 10/01/2010
           Less than six months old                                    23                       11                      $162,092,437
           Six or more months old                                       0                        0                                $0
          Reports issued this period                                   57                       30                      $173,184,658
          TOTAL                                                        80                       41                      $335,277,095

          For which a management decision
          was made during the reporting period
           – Issued prior periods                                      23                       11                      $162,092,437
           – Issued current period                                     37                       22                      $142,689,297
          TOTAL                                                        60                       33                      $304,781,734

          For which no management
          decision had been made
          as of 03/31/2011
           Less than six months old                                    20                         8                      $30,495,361
           Six or more months old                                       0                         0                               $0
          TOTAL                                                        20                         8                      $30,495,361

          *These totals include audit reports issued with both recommendations that funds be put to better use and questioned costs.




       24 Semiannual Report to the Congress
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM   Page 25




                                 Statistical Summary of OIG Accomplishments



         Management Decisions on Reports with Financial Recommendations
         Tables 2 and 3 present the reports identified in Table 1 as containing financial recommendations by category (funds to
         be put to better use or questioned costs).



                            Table 2. Management Decisions on OIG Reports with
                             Recommendations that Funds be Put to Better Use

                                                             Number of                                     Financial
                                                              Reports                                  Recommendations
            For which no management
            decision had been made
            as of 10/01/2010
             Less than six months old                             8                                       $160,863,692
             Six or more months old                               0                                                 $0
            Reports issued this period                           21                                       $157,393,262
            TOTAL                                                29                                       $318,256,954

            For which a management
            decision was made during
            the reporting period
            Recommendations agreed to by
            management based on proposed
              – management action                                21                                       $286,090,624
              – legislative action
            Recommendations not agreed
            to by management                                      2                                         $1,919,906
            TOTAL                                                23                                       $288,010,530

            For which no management
            decision had been made
            as of 03/31/2011
             Less than six months old                              6                                        $30,246,424
             Six or more months old                                0                                                 $0
            TOTAL                                                  6                                        $30,246,424




                                                                                           October 1, 2010 – March 31, 2011 25
12497-02_SAR_rev7.qxd     5/5/11     11:09 AM     Page 26




                                 Statistical Summary of OIG Accomplishments




            Table 3. Management Decisions on OIG Reports with Questioned Costs

                                                                      Number of                                                  Questioned
                                                                       Reports                                                     Costs
          For which no management
          decision had been made
          as of 10/01/2010
           Less than six months old                                          4                                                   $1,228,745
           Six or more months old                                            0                                                           $0
          Reports issued this period                                        18                                                  $15,791,396
          TOTAL                                                             22                                                  $17,020,141

          For which a management
          decision was made during
          the reporting period
            Disallowed costs                                                19                                                  $16,771,204 *
            Costs not disallowed                                             0                                                           $0
          TOTAL                                                             19                                                  $16,771,204

          For which no management
          decision had been made
          as of 03/31/2011
           Less than six months old                                          3                                                       $248,937
           Six or more months old                                            0                                                             $0
          TOTAL                                                              3                                                       $248,937

          *This total includes $6.25 million that is also included in Table 5, Criminal and Civil Recoveries, due to a joint audit
          and investigative effort.




       26 Semiannual Report to the Congress
12497-02_SAR_rev7.qxd   5/5/11    11:09 AM   Page 27




                                 Statistical Summary of OIG Accomplishments



         Investigative Workload                                                GSA employees, contractors, or private individuals doing
                                                                               business with the government.
         The OIG opened 137 investigative cases and closed 122
         cases during this period. In addition, the OIG received
                                                                               During this period, the OIG also made 19 referrals to
         and evaluated 59 complaints and allegations from
                                                                               GSA officials for information purposes only.
         sources other than the Hotline that involved GSA
         employees and programs. Based upon our analyses of
         these complaints and allegations, OIG investigations                  Actions on OIG Referrals
         were not warranted.                                                   Based on these and prior referrals, 39 cases (68
                                                                               subjects) were accepted for criminal prosecution and 9
         Referrals                                                             cases (13 subjects) were accepted for civil litigation.
                                                                               Criminal cases originating from OIG referrals resulted in
         The OIG makes criminal referrals to the Department of                 36 indictments/informations and 25 successful
         Justice or other authorities for prosecutive consideration,           prosecutions. OIG civil referrals resulted in 18 case
         and civil referrals to the Civil Division of the Department of        settlements. Based on OIG administrative referrals,
         Justice or to U.S. Attorneys for litigative consideration.The         management debarred 23 contractors/individuals,
         OIG also makes administrative referrals to GSA officials              suspended 35 contractors/individuals, and took 14
         on certain cases disclosing wrongdoing on the part of                 personnel actions against employees.




                                             Table 4. Summary of OIG Referrals

                    Type of Referral                                Cases                                     Subjects

                    Criminal                                              54                                     107
                    Civil                                                 18                                      22
                    Administrative                                        95                                     123
                    Suspension                                            18                                      42
                    Debarment                                             32                                      70

                    TOTAL                                             217                                        364




                                                                                                    October 1, 2010 – March 31, 2011 27
12497-02_SAR_rev7.qxd   5/5/11   11:09 AM     Page 28




                               Statistical Summary of OIG Accomplishments



      Monetary Results                                            of criminal and civil actions arising from OIG referrals.
      Table 5 presents the amounts of fines, penalties,
                                                                  Table 6 presents the amount of administrative recoveries
      settlements, recoveries, forfeitures, judgments, and
                                                                  and forfeitures as a result of investigative activities.
      restitutions payable to the U.S. Government as a result




                                     Table 5. Criminal and Civil Recoveries

                                                                Criminal                     Civil

                 Fines and Penalties                        $1,036,541

                 Settlements                                                           $173,111,207

                 Recoveries

                 Forfeitures

                 Seizures                                            $46

                 Restitutions                              $65,527,921

                 TOTAL                                     $66,564,508                 $173,111,207




                                            Table 6. Other Monetary Results

                 Administrative Recoveries                  $6,272,011

                 Forfeitures                                            0

                 TOTAL                                      $6,272,011




       28 Semiannual Report to the Congress
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 29




                                 APPENDIXES
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 30
12497-03_SAR-Apdx_rev7.qxd     5/5/11   1:30 PM    Page 31




                               Appendix I–Significant Audits from Prior Reports



         Under the Agency audit management decision process,            The remaining recommendation involves correcting the
         the GSA Office of the Chief Financial Officer, Office of the   type of contracting and oversight deficiencies identified
         Controller, is responsible for tracking the implementation     in this report for current and future contract actions. It is
         of audit recommendations after a management decision           scheduled for completion by May 15, 2011.
         has been reached. That office furnished the following
         status information.                                            Federal Acquisition Service’s Client
         Nineteen audits identified in prior reports to the             Support Centers (CSCs)
         Congress have not yet been fully implemented; these            Period First Reported: April 1, 2010 to September 30, 2010
         audits are being implemented in accordance with
         currently established milestones.                              This was a joint review of the Inspectors General of
                                                                        the General Services Administration (GSA) and the
         GSA’s Suspension and Debarment                                 Department of Defense (DoD). The objective was to
                                                                        determine whether GSA is compliant with defense
         Process                                                        procurement requirements that focused on procurement
         Period First Reported: April 1, 2010 to September 30, 2010     transactions processed by the CSCs located in the Mid-
                                                                        Atlantic, Southeast Sunbelt, Greater Southwest, Pacific
         This was a follow-up of the review we completed in 2007        Rim, and National Capital regions. The report contained
         entitled “Review of GSA’s Suspension and Debarment             three recommendations; one has not been implemented.
         Program (Report Number A070105/O/A/F08004).” The
         objective of this review was to determine the extent to        The remaining recommendation involves increasing
         which the Center for Suspension and Debarment is               oversight and monitoring of task order award and
         effective in processing suspension and debarment case          administration actions. It is scheduled for completion
         referrals. The report contained four recommendations,          by September 15, 2011.
         which have not been implemented.
                                                                        Controls within FAS’s Office of
         The recommendations involve maintaining adequate
         staffing for the suspension and debarment function;            Infrastructure Optimization - HSPD-12
         establishing a performance measure(s) for timeliness in        Period First Reported: April 1, 2010 to September 30, 2010
         processing case referrals; uploading documentation for
         all EPLS actions into the case management system; and          The objective of the review was to determine if HSPD-
         having direct access to resources that enables the             12 program procurement activities are compliant with
         Center to efficiently obtain information required for          federal procurement regulations. The report contained
         documentation purposes and increases efforts to                two recommendations; one has not been implemented.
         proactively obtain information for potential case referrals.
         They are scheduled for completion by July 15, 2011.            The remaining recommendation involves the Managed
                                                                        Service Office (MSO) continuing its on-going efforts for
         GSA’s Acquisition of Services for the                          the recompete of its HSPD-12 contract. These efforts
                                                                        should include consideration of contract structures (direct-
         International Trade Center at the                              buy, direct-bill, or similar) and/or business processes that
         Ronald Reagan Building                                         remove the MSO from a fund management or customer
         Period First Reported: April 1, 2010 to September 30, 2010     billing role. It is scheduled for completion by April 15,
                                                                        2011.
         The audit objective was to assess whether the extensive
         changes to the contract should have been made, with
         particular attention given to the potential procurement
         irregularities. The report contained four recommendations;
         one has not been implemented.




                                                                                                October 1, 2010 – March 31, 2011 31
12497-03_SAR-Apdx_rev7.qxd     5/5/11   1:30 PM    Page 32




                            Appendix I–Significant Audits from Prior Reports



      GSA’s Fiscal Year 2009 Direct Pay                            The remaining recommendations involve the Federal
                                                                   Acquisition Service seeking recoveries, when
      Purchases                                                    economical, advisable, and feasible from MAS vendors
      Period First Reported: April 1, 2010 to September 30, 2010   when there is a failure to cite contractual PPD terms on
                                                                   invoices; issuing guidance in the form of an Instructional
      The objective of the audit was to determine if fiscal year   Letter or Procurement Information Notice (PIN) on
      2009 direct pay purchases were processed in compliance       corrective actions contracting officers may take when
      with OCFO policy and the Prompt Payment Act. The             MAS vendor invoicing discrepancies are reported by
      report contained three recommendations; one has not          the Industrial Operations Analysts (IOAs) via Contractor
      been implemented.                                            Assistance Visits (CAV) reports or by any other means;
                                                                   and taking a formal position as to whether ordering
      The remaining recommendation involves implementing           activities can or cannot negotiate away PPDs. They are
      controls in Pegasys to prevent a single individual from      scheduled for completion by August 15, 2011.
      holding three Pegasys role-holder positions to authorize
      direct pay purchases management or customer billing
      role. It is scheduled for completion by May 15, 2011.
                                                                   Opportunities Exist to Improve GSA’s
                                                                   Implementation of the E2 Travel System
      Recovery Act Report – 50 UN Plaza                            Period First Reported: October 1, 2009 to March 31, 2010

      Renovation Project                                           The objective of the audit was to determine whether
      Period First Reported: April 1, 2010 to September 30, 2010   GSA’s implementation of the E2 system is effectively
                                                                   and efficiently meeting management and user needs,
      The objective of the review was to determine if PBS is       including program and financial requirements, and the
      planning, awarding, and administering contracts for major    achievement of intended goals and benefits for an e-
      construction and modernization projects in accordance        Government travel management system. The report
      with prescribed criteria and Recovery Act mandates. The      contained two recommendations, which have not been
      report contained two recommendations, which have not         implemented.
      been implemented.
                                                                   The recommendations involve the Chief Financial Officer
      The recommendations involve PBS considering holding          taking the necessary actions to improve system usability
      a competition for the Construction Phase Services of         and controls for system operations across GSA. They are
      this project rather than using sole source procurement,      scheduled for completion by September 15, 2011.
      and PBS ensuring that all policies, rules, and regulations
      for sole source contracts are followed if a competition is
      not held. They are scheduled for completion by August
                                                                   GSA’s Fiscal Year 2009 Financial
      15, 2011.                                                    Statements
                                                                   Period First Reported: October 1, 2009 to March 31, 2010
      Multiple Award Schedule Vendors’
                                                                   The objective of the audit was to provide a report on
      Invoicing Practices Relative to                              internal controls over financial reporting including
      Prompt-Payment Discounts                                     safeguarding assets and compliance with laws and
      Period First Reported: October 1, 2009 to March 31, 2010     regulations, and if necessary, to report instances in
                                                                   which GSA’s financial management systems did not
      The objective of the audit was to determine the extent to    substantially comply with the requirements of the
      which the Government may be at risk of losing Prompt         Federal Financial Management Improvement Act of
      Payment Discount (PPD) savings as the result of              1996. The report contained 85 recommendations; 4
      Multiple Award Schedule (MAS) vendors citing incorrect       have not been fully implemented.
      payment terms on their invoices. The report contained
      seven recommendations; three have not been                   The remaining recommendations involve the Chief
      implemented.                                                 Financial Officer working with other Agency officials to:


       32 Semiannual Report to the Congress
12497-03_SAR-Apdx_rev7.qxd     5/5/11    1:30 PM   Page 33




                               Appendix I–Significant Audits from Prior Reports



         develop and implement a process to review and                      Consistency in Implementing Policy
         document a periodic review of PBS portal audit logs
         identifying access violations; mitigate configuration
                                                                            Across Acquisition Centers
         management weaknesses; update web server to restrict               Period First Reported: April 1, 2009 to September 30, 2009
         arbitrary HTML/Code to address cross-site scripting
         issues; and strengthen the effectiveness of OCFO                   The objectives of the audit were to determine if policy
         policies and FAS monitoring obligations, including                 and related guidance for the Multiple Award Schedule
         year-end cut-off procedures to reserve outstanding                 (MAS) Program are being implemented effectively by
         obligations related to minimum revenue guarantees as               the Acquisition Centers (Centers), and to identify best
         of September 30, 2009 for the WAN Program. They are                practices for use by the Centers. The objectives were
         scheduled for completion by May 15, 2012.                          further narrowed to focus on pricing, including rate
                                                                            escalation and price adjustment. The report contained four
                                                                            recommendations. Three have not been implemented.
         PBS’s Controls over Security of
         Building Information in Online                                     The remaining recommendations involve developing
         Environments                                                       and implementing policy and training for acquisition
                                                                            personnel on a number of subjects, including most
         Period First Reported: October 1, 2009 to March 31, 2010
                                                                            favored customer pricing, the use of cost analyses, and
                                                                            the use of volume discounting during negotiations;
         The objective of the audit was to determine if PBS
                                                                            assessing the viability of developing or establishing
         has implemented managerial, physical, and technical
                                                                            resources at the national level to support contracting
         controls to effectively mitigate risks inherent to sensitive
                                                                            officers in all Centers; and ensuring the accuracy of
         but unclassified building information in online systems.
                                                                            contract information published in GSA Advantage. They
         The report contained two recommendations, which have
                                                                            are scheduled for completion by December 15, 2011.
         not been implemented.

         The recommendations involve PBS working within the                 Performance Measurement
         framework of the GSA Office of the Chief Information               Improvements for the MAS Program
         Officer security program to develop and implement a
                                                                            Period First Reported: April 1, 2009 to September 30, 2009
         security strategy for e-PM applications; and developing
         and conducting additional security awareness training
                                                                            The objective of the audit was to determine if the Federal
         for project management and contracting personnel,
                                                                            Acquisition Service (FAS) has performance measures
         especially to those with significant security responsibilities.
                                                                            for MAS contracting officers that stress the importance
         They are scheduled for completion by August 15, 2011.
                                                                            of contract quality, including pricing, and if not, to identify
                                                                            potential performance measures FAS could implement
         Recovery Act Report – Austin                                       to ensure that MAS contracts reflect the intent and goals
         Courthouse Project                                                 of the Schedules program. The report contained three
                                                                            recommendations, which have not been implemented.
         Period First Reported: October 1, 2009 to March 31, 2010

                                                                            Two recommendations involve the development of
         The objective of the audit was to determine if PBS is
                                                                            organizational measures emphasizing the importance of
         planning, awarding, and administering contracts for major
                                                                            pricing to the Schedules program, and price analysis for
         construction and modernization projects in accordance
                                                                            risked-based sample of proposed awards or modifications
         with prescribed criteria and Recovery Act mandates.
                                                                            for FY 2010 and future scorecards. The third
         The report contained two recommendations; one has
                                                                            recommendation focuses on the establishment of an
         not been implemented.
                                                                            internal review program that can quantifiably assess
                                                                            whether MAS contracts meet requirements for quality in
         The remaining recommendation involves PBS taking
                                                                            terms of compliance with laws, regulations and guidelines.
         action to correct the infirmities in the award of the option for
                                                                            They are scheduled for completion by November 15, 2011.
         Construction Phase Services for the Austin Courthouse
         Project. It is scheduled for completion by August 15, 2011.


                                                                                                    October 1, 2010 – March 31, 2011 33
12497-03_SAR-Apdx_rev7.qxd     5/5/11    1:30 PM   Page 34




                            Appendix I–Significant Audits from Prior Reports



      Unnecessary Duplication within the                            one contractor system, to assess implementation of GSA’s
                                                                    IT Security Program. The report contained five
      Office of General Supplies and                                recommendations; three have not been implemented.
      Services
      Period First Reported: April 1, 2009 to September 30, 2009    The remaining recommendations involve working with
                                                                    the Office of the Chief Acquisition Officer (OCAO) to
      The audit objective was to determine if unnecessary           develop standard requirements and deliverables for IT
      duplication exists within Global Supply Service (GSS),        service contracts and task orders that promote
      with a specific focus on OMB’s assertion that                 compliance with GSA IT Security Policy and procedures;
      unnecessary duplication exists between GSS and MAS.           working with OCAO and the Office of the Chief Human
      The report contained five recommendations; one has            Capital Officer (OCHCO) to ensure consistent
      not been implemented.                                         background investigation requirements in policies,
                                                                    procedures, and task orders; and expediting actions to
      The remaining recommendation involves submitting a            implement encryption of mobile devices and two-factor
      formal Federal Procurement Data System change                 authentications and work with the OCHCO to promptly
      request to resolve the issue that requires GSS to award       fulfill responsibilities for implementing a comprehensive
      separate MAS contracts for small business set-asides.         breach notification policy. They are scheduled for
      It is scheduled for completion by July 15, 2011.              completion by November 15, 2011.

      Management Controls over the Lease                            Improvements to the GSA Privacy Act
      Prospectus Process                                            Program Are Needed to Ensure That
       Period First Reported: April 1, 2009 to September 30, 2009   PII is Adequately Protected
                                                                    Period First Reported: October 1, 2007 to March 31, 2008
      The objective of the audit was to determine if
      management controls are in place to provide reasonable        The objectives of the audit were to determine if GSA:
      assurance that Public Buildings Service’s (PBS) leasing       manages sensitive personal information in accordance
      transactions adhere to prospectus requirements. The           with legal and regulatory requirements, including e-
      report contained five recommendations; two have not           Government provisions for privacy controls; has
      been implemented.                                             implemented technical, managerial, and operational
                                                                    privacy-related controls to effectively mitigate risks
      The remaining recommendations involve establishing a          inherent to Privacy Act systems of records; and, has
      consistent approach for evaluation of leasing actions for     established procedures and automated mechanisms to
      prospectus compliance and improving communication             verify control efficacy. The report contained four
      and coordination among the prospectus process                 recommendations; one has not been implemented.
      participants. They are scheduled for completion by
      August 15, 2011.                                              The remaining recommendation involves ensuring that
                                                                    the Privacy Act Program is integrated with the Agency’s
      FY 2008 Office of Inspector General                           security program. It is scheduled for completion by
                                                                    November 15, 2011.
      FISMA Review of GSA’s Information
      Technology Security Program                                   Multiple Award Schedule Program
      Period First Reported: April 1, 2008 to September 30, 2008
                                                                    Contract Workload Management
      The objectives of the audit were to assess the                Period First Reported: April 1, 2007 to September 30, 2007
      effectiveness of controls over GSA systems and data and
      to address specific questions and reporting requirements      The objective of the audit was to determine if the Federal
      identified by OMB. Four systems were reviewed, including      Acquisition Service was effectively managing the




       34 Semiannual Report to the Congress
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 35




                             Appendix I–Significant Audits from Prior Reports



         workload associated with processing contract actions in    Security of GSA’s Electronic
         the Schedules program. The report contained ten
         recommendations; four have not been implemented.
                                                                    Messaging Services
                                                                    Period First Reported: April 1, 2007 to September 30, 2007
         The remaining recommendations involve adopting a
         more structured approach to reduce the number of           The review assessed whether GSA has adequate security
         existing underutilized schedule contracts; establishing    controls to manage risks with GSA’s Electronic Messaging
         specific nationwide guidance related to Price Analysis     Services and National Notes Infrastucture applications.
         Documentation Requirements and Negotiation Policies        The report contained seven recommendations; one has
         and Techniques for schedule contracts; establishing        not been implemented.
         performance measures that evaluate (a) verification of
         vendor disclosures related to Commercial Sales             The remaining recommendation involves the GSA-CIO
         Practice, (b) effectiveness in analyzing prices and        working closely with Services/Staff Offices/Regions to
         conducting negotiations, and (c) consideration of the      inventory all GSA’s Lotus Notes databases and
         field pricing assistance; and developing standardized      applications and remove those that are outdated, lack
         procedures for the initial screening of offers. They are   necessary controls or do not adhere to guidelines. It is
         scheduled for completion by April 15, 2012.                scheduled for completion by March 30, 2012.




                                                                                             October 1, 2010 – March 31, 2011 35
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 36




                                      Appendix II–Audit Report Register
                                                                                                Financial
                                                                                           Recommendations
                                                                                      Funds to        Questioned
       Date of         Report                                                        Be Put to       (Unsupported)
       Report          Number                    Title                               Better Use           Costs

      (Note: Because some audits pertain to contract awards or actions that have not yet been completed, the financial
      recommendations related to these reports are not listed in this Appendix.)

       PBS Internal Audits
       11/08/10        A100116         Review of Health and Safety Conditions at
                                       the Bannister Federal Complex, Kansas
                                       City, Missouri

       11/09/10        A100122         FY2010 Office of Inspector General
                                       Information Technology Security Audit of
                                       the Electronic Acquisition System
                                       (EAS)/Comprizon

       11/17/10        A090172         Recovery Act Report - Richard H. Poff and
                                       Huntington Building Modernization Projects
                                       Review of PBS’s Major Construction and
                                       Modernization Projects Funded by the
                                       American Recovery and Reinvestment Act
                                       of 2009

       12/22/10        A070228         Audit of the PBS National Broker Contract

       01/20/11        A100169         Review of the Greater Southwest Region
                                       Public Buildings Service Energy Savings
                                       Performance Contract Task Orders

       01/21/11        A090172         Recovery Act Report: Edith Green/Wendell
                                       Wyatt Modernization Project Review
                                       of PBS’s Major Construction and
                                       Modernization Projects Funded by the
                                       American Recovery and Reinvestment Act
                                       of 2009

       02/24/11        A100095         Implementation Review of Review of
                                       Proposed Lease Payment Recoveries,
                                       Northeast and Caribbean Region, Report
                                       Number A080179/P/2/R09003, Dated July
                                       24, 2009

       03/04/11        A090172         Recovery Act Report - Peace Arch U.S. Port
                                       of Entry Redevelopment: Construction
                                       Contract Review of PBS’s Major
                                       Construction and Modernization Projects
                                       Funded by the American Recovery and
                                       Reinvestment Act of 2009


       36 Semiannual Report to the Congress
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 37




                                         Appendix II–Audit Report Register
                                                                                                  Financial
                                                                                             Recommendations
                                                                                        Funds to        Questioned
         Date of        Report                                                         Be Put to       (Unsupported)
         Report         Number                      Title                              Better Use           Costs

         03/25/11       A100122          Audit of the Electronic Acquisition System
                                         (EAS)/Comprizon

         03/31/11       A090169          Recovery Act Report - Use of a Contractor
                                         Supplied ePM System for the Land Port of
                                         Entry Modernization Program


         PBS Attestation Engagements
         10/12/10       A100156          Examination of a Claim: Acousti Engineering
                                         Company of Florida, Subcontractor to Dick
                                         Corporation, Contract Number GS-04P-01-
                                         EXC-0044

         01/27/11       A100213          Examination of a Claim: Cobb Mechanical
                                         Contractors, Subcontractor to Caddell
                                         Construction Company, Incorporated,
                                         Contract Number GS-07P-05-UEC-3003

         01/31/11       A100178          Examination of Construction Management
                                         Services Contract: Bovis Lend Lease LMB,
                                         Inc., Contract Number GS-02P-04-DTC-
                                         0048(NEG), Modification No. PS14

         02/02/11       A100171          Examination of a Claim: Layton Construction
                                         Company, Inc., Contract Number GS-08P-
                                         07-JFC-0016



         02/04/11       A100192          Examination of Architect and Engineering
                                         Services Contract: Thomas Phifer and
                                         Partners, LLP, Contract Number GS-02P-
                                         10-DTC-0004



         FAS Internal Audits
         10/27/10       A100136          Audit Survey of the HSPD-12 Billing Process

         11/09/10       A100123          FY2010 Office of Inspector General
                                         Information Technology Security Audit of
                                         the Information Technology Solutions Shop
                                         (ITSS) System




                                                                                       October 1, 2010 – March 31, 2011 37
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 38




                                      Appendix II–Audit Report Register
                                                                                                Financial
                                                                                           Recommendations
                                                                                      Funds to        Questioned
       Date of         Report                                                        Be Put to       (Unsupported)
       Report          Number                    Title                               Better Use           Costs

       03/30/11        A100190         Review of the Alliant Governmentwide
                                       Acquisition Contract

       03/31/11        A100204         Review of Consistency in Implementing
                                       Policy Across Acquisition Centers -
                                       Temporary Extensions

       03/31/11        A110072         Review of the Federal Acquisition Service’s
                                       National Customer Service Center



       FAS Attestation Engagements
       10/07/10        A100117         Preaward Examination of Multiple Award
                                       Schedule Contract Extension: Dun &
                                       Bradstreet, Inc., Contract Number GS-
                                       22F-9614D

       10/13/10        A100153         Preaward Examination of Multiple Award                              $3,934
                                       Schedule Contract Extension: Unisys
                                       Corporation, Contract Number GS-35F-
                                       0343J

       10/27/10        A090133         Limited Scope Postaward Review of                               $1,130,227
                                       Multiple Award Schedule Contract Number
                                       GS-07F-0012J for the Period July 29, 2002
                                       to September 9, 2008: SeaArk Marine, Inc.

       10/28/10        A100184         Preaward Examination of Multiple Award                             $31,908
                                       Schedule Contract Extension: Thales
                                       Communications, Inc., Contract Number
                                       GS-35F-0001L

       11/01/10        A100163         Preaward Examination of Multiple Award                              $4,136
                                       Schedule Contract Extension: Monaco
                                       Enterprises, Incorporated, Contract Number
                                       GS-07F-0422K

       11/02/10        A100167         Preaward Examination of Multiple Award                             $95,428
                                       Schedule Contract Extension: Affordable
                                       Interior Systems, Inc., Contract Number GS-
                                       29F-0006K

       11/09/10        A100079         Preaward Review of Multiple Award                                  $35,108
                                       Schedule Contract Extension: Management
                                       Consulting, Inc., Contract Number GS-10F-
                                       0302K

       38 Semiannual Report to the Congress
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 39




                                         Appendix II–Audit Report Register
                                                                                                   Financial
                                                                                              Recommendations
                                                                                         Funds to        Questioned
         Date of        Report                                                          Be Put to       (Unsupported)
         Report         Number                      Title                               Better Use           Costs

         11/12/10       A100176          Preaward Examination of Multiple Award                                 $10,747
                                         Schedule Contract Extension: Sparta, Inc.,
                                         Contract Number GS-23F-0025L

         11/16/10       A080057          Preaward Review of Multiple Award                                   $7,580,000
                                         Schedule Contract Extension: The Sherwin-
                                         Williams Company, Contract Number GS-
                                         10F-0004J

         11/17/10       A090223          Preaward Examination of Multiple Award
                                         Schedule Contract Extension: Alaska
                                         Structures, Incorporated, Contract Number
                                         GS-07F-0084K

         11/17/10       A100179          Preaward Examination of Multiple Award
                                         Schedule Contract Extension: TEAC
                                         Aerospace Technologies, Incorporated,
                                         Contract Number GS-24F-0043K

         11/22/10       A100195          Preaward Examination of Multiple Award                                 $16,032
                                         Schedule Contract Extension: Knight
                                         Protective Service, Inc., Contract Number
                                         GS-07F-0266K

         11/24/10       A100193          Postaward Audit of Multiple Award Schedule                             $41,168
                                         Contract Extension: The Stratix Corporation,
                                         Contract Number GS-35F-0805R

         11/24/10       A090192          Preaward Review of Multiple Award
                                         Schedule Contract Extension: SHI
                                         International Corporation, Contract Number
                                         GS-35F-0111K

         12/09/10       A100094          Preaward Examination of Multiple Award                                $282,035
                                         Schedule Contract Extension: Computer
                                         Sciences Corporation, Contract Number GS-
                                         23F-0092K

         12/14/10       A100177          Preaward Examination of Multiple Award
                                         Schedule Contract Extension: AAR Mobility
                                         Systems, Contract Number GS-07F-0065L

         12/14/10       A100201          Preaward Examination of Multiple Award                                  $5,119
                                         Schedule Contract Extension: Government-
                                         Buys, Incorporated, Contract Number GS-
                                         35F-0122S



                                                                                        October 1, 2010 – March 31, 2011 39
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 40




                                      Appendix II–Audit Report Register
                                                                                                Financial
                                                                                           Recommendations
                                                                                      Funds to        Questioned
       Date of         Report                                                        Be Put to       (Unsupported)
       Report          Number                    Title                               Better Use           Costs

       12/16/10        A100111         Preaward Examination of Multiple Award
                                       Schedule Contract Extension: Staples, Inc.,
                                       Contract Number GS-14F-0036K

       12/27/10        A100172         Preaward Examination of Multiple Award                             $10,850
                                       Schedule Contract Extension: New England
                                       Woodcraft, Inc., Contract Number GS-27F-
                                       0005L

       01/27/11        A100075         Preaward Review of Multiple Award
                                       Schedule Contract Extension: Cort Business
                                       Services Corporation, Contract Number GS-
                                       28F-7018G

       01/31/11        A110022         Preaward Examination of Multiple Award                             $45,767
                                       Schedule Contract Extension: Cooper
                                       Notification, Inc., Contract Number GS-
                                       07F-0167L

       02/09/11        A100219         Preaward Examination of Multiple Award
                                       Schedule Contract Extension: IntelliDyne,
                                       LLC Contract Number GS-35F-0151S

       02/15/11        A100212         Preaward Examination of Multiple Award
                                       Schedule Contract Extension: Scientific
                                       Research Corporation, Contract Number
                                       GS-23F-0125L

       02/18/11        A100181         Preaward Examination of Multiple Award                             $17,938
                                       Schedule Contract Extension: L. N. Curtis &
                                       Sons, Contract Number GS-07F-0043L

       02/24/11        A100003         Preaward Review of Multiple Award
                                       Schedule Contract Extension: McLane
                                       Advanced Technologies, LLC, Contract
                                       Number GS-35F-0901P

       02/24/11        A100154         Preaward Examination of Multiple Award
                                       Schedule Contract Extension: Metro Office
                                       Products, Contract Number GS-14F-0032K

       03/09/11        A060119         Postaward Review of Multiple Award                              $6,250,000
                                       Schedule Contract: Fastenal Company,
                                       Contract Number GS-06F-0039K, for the
                                       Period August 1, 2000 Through August 31,
                                       2006



       40 Semiannual Report to the Congress
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 41




                                         Appendix II–Audit Report Register
                                                                                                Financial
                                                                                           Recommendations
                                                                                      Funds to        Questioned
         Date of        Report                                                       Be Put to       (Unsupported)
         Report         Number                      Title                            Better Use           Costs

         03/10/11       A100062          Preaward Review of Multiple Award
                                         Schedule Contract Extension: Carahsoft
                                         Technology Corporation, Contract Number
                                         GS-35F-0131R

         03/16/11       A100168          Preaward Examination of Multiple Award
                                         Schedule Contract Extension: Johnson
                                         Controls, Inc., Contract Number GS-07F-
                                         7823C

         03/24/11       A110091          Preaward Examination of Multiple Award
                                         Schedule Contract Extension: K-Con,
                                         Incorporated, Contract Number GS-07F-
                                         0216L

         03/29/11       A100114          Preaward Review of Multiple Award                                 $123,252
                                         Schedule Contract Extension: Ahura
                                         Scientific, Inc., Contract Number GS-07F-
                                         6099R

         03/30/11       A100145          Preaward Review of Multiple Award                                 $107,747
                                         Schedule Contract Extension: TL Services,
                                         Inc., Contract Number GS-06F-0062R

         03/31/11       A100155          Preaward Examination of Multiple Award
                                         Schedule Contract Extension: Systems
                                         Research and Applications Corporation,
                                         Contract Number GS-23F-0038L


         Other Internal Audits
         12/08/10       A100085          FY 2010 Office of Inspector General FISMA
                                         Review of GSA’s Information Technology
                                         Security Program

         12/20/10       A100113          FY 2010 Office of Inspector General
                                         Information Technology Security Audit of
                                         FPDS-NG

         12/20/10       A100113          FY 2010 Office of Inspector General
                                         Information Technology Security Audit of
                                         the Excluded Parties List System




                                                                                     October 1, 2010 – March 31, 2011 41
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 42




                                      Appendix II–Audit Report Register
                                                                                                Financial
                                                                                           Recommendations
                                                                                      Funds to        Questioned
       Date of         Report                                                        Be Put to       (Unsupported)
       Report          Number                    Title                               Better Use           Costs

       12/23/10        A100078         Audit    of    the    General     Services
                                       Administration’s Fiscal Year 2010 Financial
                                       Statements

       12/28/10        A100113         FY 2010 Office of Inspector General
                                       Information Technology Security Audit of
                                       FedBizOpps




       42 Semiannual Report to the Congress
12497-03_SAR-Apdx_rev7.qxd    5/5/11   1:30 PM    Page 43




           Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
         Public Law 104-106 requires the head of a federal agency         In GSA, the Office of the Chief Financial Officer (OCFO) is
         to complete final action on each management decision             responsible for monitoring and tracking open recommenda-
         required with regard to a recommendation in an Inspector         tions. While we continue to assist the Agency in resolving
         General’s report within 12 months after the date of the          these open items, various litigative proceedings, continuing
         report. If the head of the Agency fails to complete final        negotiations of contract proposals, and corrective actions
         action within the 12-month period, the Inspector General         needed to undertake complex and phased-in implementing
         shall identify the matter in the semiannual report until final   actions often delay timely completion of the final action.
         action is complete.

         The OCFO provided the following list of reports with action items open beyond 12 months:

         Date of          Report
         Report           Number                                              Title


         Attestation Engagements
         04/30/01         A010127           Audit of Billing under Contract Number GS-06P-99-GZC-0315: DKW Construction,
                                            Inc., Contract Number GS-06P-99-GZC-0315

         10/18/01         A63630            Postaward Audit of Multiple Award Schedule Contract: The Presidio Corporation,
                                            Contract Number GS-00K-95-AGS-6170

         03/25/03         A030140           Limited Scope Review of Termination Claim: Science Applications International
                                            Corp., Contract Number GS-35F-4461G

         10/12/05         A050105           Preaward Review of Multiple Award Schedule Contract Extension: BCOP Federal,
                                            Contract Number GS-14F-003K

         04/18/06         A050122           Review of Industrial Funding Fee Remittances: Fasternal Company, Contract
                                            Number GS-06F-0039K

         08/28/07         A060196           Preaward Review of Request for Equitable Adjustment: Tigard Electric, Incorporated,
                                            Contract Number GS-10P-02-LTC-0025

         04/29/08         A080084           Review of Change Order Proposal for Resolution of Wage Rate: Kenmor Electrical
                                            Company, LP, Contract Number GS-07P-05-URC-5007

         08/05/08         A080077           Preaward Review of Multiple Award Schedule Contract Extension: Gartner, Inc.,
                                            Contract Number GS-35F-5014H

         12/12/08         A080177           Preaward Review of Multiple Award Schedule Contract Extension: Tecolote
                                            Research, Incorporated, Contract Number GS-35F-5115H

         12/16/08         A080185           Review of a Claim: Pacific Coast Steel, Contract Number GS-09P-02-KTC-0002

         12/29/08         A090042           Postaward Audit Report on Direct Costs Incurred on Trilogy Project: Computer
                                            Sciences Corporation, Contract Number GS-00T-99-ALD-0204

         01/09/09         A080220           Review of a Claim: Boyett Door and Hardware, Contract Number GS-09P-02-KTC-0002

         01/20/09         A080136           Preaward Review of Multiple Award Schedule Contract Extension: Dynamic
                                            Decisions, Inc., Contract Number GS-35F-5879H

         01/28/09         A090005           Preaward Review of Multiple Award Schedule Contract Extension: Intratek
                                            Computer Incorporated, Contract Number GS-35F-0178J

         02/04/09         A080067           Preaward Review of Multiple Award Schedule Contract Extension: Haworth, Inc.,
                                            Contract Number GS-28F-8014H

                                                                                                  October 1, 2010 – March 31, 2011 43
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 44




        Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
       Date of        Report
       Report         Number                                         Title

       03/03/09        A080085         Preaward Review of Multiple Award Schedule Contract Extension: The HON
                                       Company, Contract Number GS-28F-8047H

       03/23/09        A080212         Preaward Review of Multiple Award Schedule Contract Extension: Phillips
                                       Corporation -- Federal Division, Contract Number GS-07F-7729C

       04/23/09        A080203         Preaward Review of Multiple Award Schedule Contract Extension: SimplexGrinnell
                                       LP, Contract Number GS-06F-0054N

       04/27/09        A080210         Preaward Review of Multiple Award Schedule                 Contract    Extension:
                                       immixTechnology, Inc., Contract Number GS-35F-033J

       06/11/09        A080077         Limited Scope Postaward Review of Multiple Award Schedule Contract: Gartner,
                                       Inc., Contract Number GS-35F-5014H

       07/08/09        A090007         Preaward Review of Multiple Award Schedule Contract Extension: Booz Allen
                                       Hamilton, Inc., Contract Number GS-35F-0306J

       08/06/09        A090145         Preaward Review of Multiple Award Schedule Contract Extension: BTAS, Inc.,
                                       Contract Number GS-35F-0546J

       08/19/09        A090106         Preaward Review of Multiple Award Schedule Contract Extension: Perot Systems
                                       Government Services, Inc., Contract Number GS-00F-0049M
       08/19/09        A080223         Preaward Review of Multiple Award Schedule Contract Extension: AT&T Corp.,
                                       Contract Number GS-35F-0249J

       08/20/09        A090117         Preaward Review of Multiple Award Schedule Contract Extension:           Monster
                                       Government Solutions, Incorporated, Contract Number GS-02F-0010P

       08/21/09        A090090         Preaward Review of Multiple Award Schedule Contract Extension: Ezenia! Inc.,
                                       Contract Number GS-35F-0475P

       08/21/09        A080030         Preaward Review of Multiple Award Schedule Contract: Hewlett-Packard Company,
                                       Contract Number GS-35F-4663G

       08/24/09        A090131         Preaward Review of Multiple Award Schedule Contract Extension: Avid Technology,
                                       Inc., Contract Number GS-35F-0638J

       08/27/09        A090228         Report on Audit of Parts of A Firm Fixed Price Proposal for Architectural and
                                       Engineering Services on the New St. Elizabeth’s West Campus of the U.S. Department
                                       of Homeland Security Headquarters and Consolidated National Operations Center
                                       (NOC): Greenhorne & O’Mara, Inc., Solicitation Number GS-11P-08-MKC-0079

       09/03/09        A090089         Preaward Review of Multiple Award Schedule Contract Extension: Mohawk Carpet
                                       Corporation, Lees Carpets Division, Contract Number GS-27F-0031N

       09/04/09        A090254         Report on Audit of Parts of a Firm Fixed price Proposal for Architectural and
                                       Engineering Services on the New St. Elizabeth’s West Campus of the U.S.
                                       Department of Homeland Security Headquarters and Consolidated National
                                       Operations Center (NOC): Greenhorne & O’Mara, Inc., Solicitation Number GS-11P-
                                       08-MKC-0080




       44 Semiannual Report to the Congress
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 45




          Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
         Date of        Report
         Report         Number                                            Title

         09/04/09       A090074          Preaward Review of Multiple Award Schedule Contract Extension: TechFlow, Inc.,
                                         Contract Number GS-35-0210J

         09/08/09       A090217          Preaward Review of Architect/Engineering Change Order Proposal: AECOM U.S.,
                                         Subcontractor to Ross Drulis Cusenbery Architecture, Incorporated, Contract
                                         Number GS-09P-03-KTC-0091

         09/09/09       A090232          Report on Audit of Parts of a Firm Fixed Price Proposal for Architectural and Engineering
                                         Services on the New St. Elizabeth’s West Campus of the United States Department of
                                         Homeland Security Headquarters and Consolidated National Operations Center in
                                         Washington, DC: Haley & Aldrich, Inc., Solicitation Number GS-11P-08-MKC-0079

         09/09/09       A090230          Report on Audit of Parts of a Firm Fixed Price Proposal for Architectural and
                                         Engineering Services on the New St. Elizabeth’s West Campus of the United States
                                         Department of Homeland Security Headquarters and Consolidated National
                                         Operations Center in Washington, DC: Goody, Clancy, and Associates, Inc.,
                                         Solicitation Number GS-11P-08-MKC-0079

         09/10/09       A090234          Report on Audit of Direct Labor Rates, Indirect Rates, and Other Direct Costs: HDR
                                         Architecture, Inc., Solicitation Number GS-11P-08-MKC-0079

         09/11/09       A090242          Audit of Firm Fixed Price Subcontract Proposal: Olin Partnership, Solicitation
                                         Number GS-11P-08-MKC-0080

         09/14/09       A090239          Audit of Shen Milsom & Wilke Proposed Subcontract to Goody Clancy Under
                                         Solicitation Number GS-11P-08-MKC-0079

         09/15/09       A090233          Report on Audit of Parts of a Subcontract Proposal for HC YU and Associates,
                                         Solicitation GS-11P-08-MKC-0079

         09/16/09       A090215          Preaward Review of Architect/Engineering Change Order Proposal: Ross Drulis
                                         Cusenbery Architecture, Incorporated, Contract Number GS-09P-03-KTC-0091

         09/16/09       A090237          Report on Audit of Parts of a Subcontract Firm Fixed Price Proposal: Rhodeside and
                                         Harwell, Inc., Solicitation Number GS-11P-08-MKC-0079

         09/17/09       A090246          Report on Audit of Parts of a Proposal: A&F Engineers, Inc., Solicitation Number GS-
                                         11P-08-MKC-0080

         09/21/09       A090231          Audit of Proposed Subcontract to Goody Clancy: Gruzen Samton, Solicitation GS-
                                         11P-08-MKC-0079

         09/21/09       A090253          Report on Audit of Parts of a Proposal: O’Neal Technologies, Inc., Solicitation
                                         Number GS-11P-08-MKC-0080

         09/21/09       A090252          Report on Audit of Subcontract Proposal to Zimmer Gunsul Frasca for St. Elizabeth’s
                                         West Campus of the U.S. Department of Homeland Security: Code Consultants,
                                         Inc., Solicitation Number GS-11P-08-MKC-0080

         09/22/09       A090229          Audit of Parts of a Proposal for ARUP USA, Inc.’s Proposal for Architect &
                                         Engineering Professional Services: ARUP USA, Inc., Solicitation Number GS-11P-
                                         08-MKC-0079




                                                                                              October 1, 2010 – March 31, 2011 45
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 46




        Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
       Date of        Report
       Report         Number                                           Title

       09/23/09        A090245         Report on Audit of Parts of a Proposal: Thornton Tomasetti, Inc., Solicitation Number
                                       GS-11P-08-MKC-0080

       09/24/09        A090247         Firm Fixed Price Subcontract Proposal to Zimmer Gunsul Frasca: Hinman
                                       Consulting Engineers, Inc., Solicitation Number GS-11P-08-MKC-0080

       09/25/09        A090250         Report on Audit of Subcontract Proposal to Zimmer Gunsul Frasca for Architect
                                       Engineering Professional Services: RTM Consultants, Inc., Solicitation Number GS-
                                       11P-08-MKC-0080

       09/25/09        A090241         Report on Audit of Parts of a Proposal for EYP Project: Einhorn Yaffee Prescott
                                       Architecture & Engineering, P.C., Solicitation Number GS-11P-08-MKC-0080

       09/25/09        A090118         Interim Postaward Review of Multiple Award Schedule Contract: Murray-Benjamin
                                       Electric Co., Contract Number GS-35F-0088N

       09/28/09        A090251         Report on Audit of Parts of a Firm-Fixed-Price Subcontract Proposal for the St.
                                       Elizabeth’s East-west Campus, U.S. Department of Homeland Security: Kroll
                                       Security Group, Solicitation Number GS-11P-08-MKC-0080

       09/28/09        A090244         Report on Audit of Parts of a Proposal: JVP Engineers, P.C., Solicitation Number
                                       GS-11P-08-MKC-0080

       09/29/09        A090243         Audit of Parts of a Proposal: Syska & Hennessy, Inc., Solicitation Number GS-11P-
                                       08-MKC-0080

       09/29/09        A090235         Report on Audit of Parts of a Firm-Fixed Price Subcontract Proposal: Kohnen-
                                       Starkey, Inc., Solicitation Number GS-11P-08-MKC-0079

       09/29/09        A090248         Report on Audit of Parts of a Subcontract Proposal: Schnabel Engineering, LLC,
                                       Solicitation Number GS-11P-08-MKC-0080

       10/08/09        A090249         Report on Audit of Parts of a Firm-Fixed-Price Proposal for Architect and
                                       Engineering Services: Project Management Services, Inc., Solicitation Number GS-
                                       11P-08-MKC-0080

       10/08/09        A080143         Preaward Review of Multiple Award Schedule Contract Extension: Stanley
                                       Associates, Inc., Contract Number GS-35F-5900H

       10/21/09        A080155         Limited Scope Postaward Review of Multiple Award Schedule: Cascades
                                       Technologies, Inc., Contract Number GS-35F-0293N

       10/23/09        A090170         Preaward Review of Multiple Award Schedule Contract Extension: Etouch Systems
                                       Corporation, Contract Number GS-35F-0627P

       10/29/09        A090124         Preaward Review of Multiple Award Schedule Contract Extension: Intergraph
                                       Corporation, Contract Number GS-35F-0011K

       11/09/09        A090098         Postaward Review of Multiple Award Schedule contract: Point Blank Body Armor,
                                       Inc., Contract Number GS-07F-8942D

       11/09/09        A090202         Preaward Review of Multiple Award Schedule Contract Extension: Computech, Inc.,
                                       Contract Number GS-35F-0108K




       46 Semiannual Report to the Congress
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 47




          Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
         Date of        Report
         Report         Number                                          Title

         11/17/09       A080144          Preaward Review of Multiple Award Schedule Contract Proposal: BMC Software,
                                         Inc., Solicitation Number FCIS-JB-980001-B

         12/10/09       A090159          Preaward Review of Multiple Award Schedule Contract Extension: RCF Information
                                         Systems, Inc., Contract Number GS-35F-0613J

         12/16/09       A090240          Report on Audit of direct Labor, Direct Labor Escalation, Other Direct Costs, and
                                         Labor Overhead/G&A Rates: Zimmer Gunsul Frasca Architects LLP, Solicitation
                                         Number GS-11P-08-MKC-0080

         12/16/09       A090101          Review of a Claim: Paramount Mechanical Corp., Subcontractor to PJ Dick Inc.,
                                         Contract Number GS-11P-02-MKC-0055

         12/21/09       A090189          Preaward Review of Multiple Award Schedule Contract Extension: Cascade
                                         Designs, Incorporated, Contract Number GS-07F-5451R

         01/26/10       A090105          Review of a Claim: Marelich Mechanical Company, Incorporated, Subcontractor to Dick
                                         Corporation/Morganti Group, a Joint Venture, Contract Number GS-09P-02-KTC-0002

         02/01/10       A080206          Examination of a Claim: Dick Corporation/Morganti Group, a Joint Venture, Contract
                                         Number GS-09P-02-KTC-0002

         02/16/10       A090257          Preaward Review of Multiple Award Schedule Contract Extension: Technical and
                                         Management Resources, Inc., Contract Number GS-35F-0142K
         02/24/10       A090198          Preaward Review of Multiple Award Schedule Contract Extension: IBIS Tek, LLC,
                                         Contract Number GS-07F-5505R

         02/24/10       A090216          Postaward Review of Architect/Engineering Progress Billings: Ross Drulis
                                         Cusenbery Architecture, Incorporated, Contract Number GS-09P-03-KTC-0091

         03/10/10       A090218          Postaward Review of Architect/Engineering Progress Billings: AECOM
                                         Transportation, a Division of AECOM U.S., Subcontractor to Ross Drulis Cusenbery
                                         Architecture, Incorporated, Contract Number GS-09P-03-KTC-0091

         03/17/10       A100087          Postaward Review of Architect/Engineering Progress Billings: AECOM Design, a
                                         Division of AECOM U.S., Subcontractor to Ross Drulis Cusenbery Architecture,
                                         Incorporated, Contract Number GS-09P-03-KTC-0091

         03/18/10       A100041          Examination of a Claim: T&M Manufacturing, Incorporated, Subcontractor to Dick
                                         Corporation/Morganti Group, a Joint Venture, Contract Number GS-09P-02-KTC-
                                         0002

         03/22/10       A090187          Preaward Review of Multiple Award Schedule Contract Extension: B&H Foto &
                                         Electronics Corp., Contract Number GS-03F-0022R




                                                                                          October 1, 2010 – March 31, 2011 47
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 48




        Appendix III–OIG Reports over 12 Months Old, Final Agency Action Pending
       Date of        Audit
       Report         Number                                           Title


       Internal Audits
       07/31/07       A060190             Review of Multiple Award Schedule Program Contract       04/15/2012
                                          Workload Management

       09/12/07       A070180             Alert Report on Security of GSA’s Electronic Messaging   03/30/2012
                                          Services and National Notes Infrastructure

       03/31/08       A060228             Improvements to the GSA Privacy Act Program are          11/15/2011
                                          Needed to Ensure that Personally Identifiable
                                          Information is Adequately Protected

       09/11/08       A080081             FY 2008 Office of Inspector General FISMA Review of      11/15/2011
                                          GSA’s Information Technology Security Program

       07/15/09       A070199             Review of Management Controls over the Lease             08/15/2011
                                          Prospectus Process

       09/30/09       A080226             Determination of Unnecessary Duplication within the      07/15/2011
                                          Office of General Supplies and Services Federal
                                          Acquisition Service

       09/30/09       A070171             Review of Program Performance Measurement for            11/15/2011
                                          Procurement

       09/30/09       A070118             Review of Consistency in Implementing Policy Across      12/15/2011
                                          Acquisition Centers

       01/08/10       A090062             Audit of the General Services Administration’s Fiscal    05/15/2012
                                          Year 2009 Financial Statements

       03/12/10       A090172             Recovery Act Report – Austin Courthouse Project          08/15/2011
                                          Review of PBS’s Major Construction and Modernization
                                          Projects

       03/15/10       A090026             Review of Multiple Award Schedule Vendors’ Invoicing     08/15/2011
                                          Practices Relative to Prompt-Payment Discounts

       03/31/10       A090126             FY 2009 Office of Inspector General Information          04/15/2012
                                          Technology Security Audit of the Office of the Chief
                                          Financial Officer’s Corporate Information Network

       03/31/10       A070216             Audit of PBS’s Controls over Security of Building        08/15/2011
                                          Information in Online Environments

       03/31/10       A080180             Opportunities Exist to Improve GSA’s Implementation      09/15/2011
                                          of the E2 Travel System




       48 Semiannual Report to the Congress
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 49




                Appendix IV–Government Contractor Significant Report Findings



         The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each Inspector General appointed
         under the Inspector General Act of 1978 to submit an annex on final, completed contract reports issued to the contract-
         ing activity that contain significant audit findings—unsupported, questioned, or disallowed costs in an amount in excess
         of $10 million, or other significant findings—as part of the Semiannual Report to the Congress. During this reporting peri-
         od, the OIG issued no reports that met this requirement.




                                                                                                October 1, 2010 – March 31, 2011 49
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 50




                     Appendix V–OIG Reports Without Management Decision



      Section 5(a)(10) of the IG Act as amended, requires a summary of each report issued before the commencement of
      the reporting period for which no management decision has been made by the end of the reporting period. GSA has a
      system in place to track reports and management decisions. Its purpose is to ensure that recommendations and cor-
      rective actions indicated by the OIG and agreed to by management are addressed as efficiently and expeditiously as
      possible. This period there were no reports that met this requirement.




       50 Semiannual Report to the Congress
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 51




                                         Appendix VI–Peer Review Results



         The Dodd-Frank Wall Street Reform Act requires each Inspector General to submit an appendix containing: the results
         of any peer review conducted by another Office of Inspector General (OIG) during the reporting period or if no peer
         review was conducted, a statement identifying the date of the last peer review conducted; a list of any outstanding rec-
         ommendations from any peer review conducted by another OIG that have not been fully implemented, the status of
         the recommendation and an explanation why the recommendation is not complete; and, a list of any peer reviews con-
         ducted by the OIG of another Office of Inspector General during the reporting period, including a list of any outstand-
         ing recommendations made from any previous peer review that have not been fully implemented.

         During this reporting period between December 6, 2010 and December 13, 2010, the Office of Investigations had a
         peer review conducted by the Department of Energy Office of Inspector General, which resulted in an opinion that the
         Office of Investigations system of internal safeguards and management procedures were in compliance with the qual-
         ity standards established by the CIGIE and applicable Attorney General guidelines. The last peer review conducted
         for the Office of Audits was in September 2009. No material findings were reported from any peer review. In addition,
         we did not conduct any peer reviews of another OIG during this reporting period. As such, there are no outstanding
         recommendations made from any peer reviews that have not been fully implemented.




                                                                                             October 1, 2010 – March 31, 2011 51
12497-03_SAR-Apdx_rev7.qxd          5/5/11      1:30 PM      Page 52




                                            Appendix VII–Reporting Requirements


      The table below cross-references the reporting                                      1980 Supplemental Appropriations and Rescission Bill,
      requirements prescribed by the Inspector General Act                                the National Defense Authorization Act and the Dodd-
      of 1978, as amended, to the specific pages where they                               Frank Wall Street Reform Act are also cross-refer-
      are addressed. The information requested by the                                     enced to the appropriate page of the report.
      Congress in Senate Report No. 96-829 relative to the


       Requirement                                                                                                                                         Page

         Inspector General Act

            Section 4(a)(2) – Review of Legislation and Regulations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

            Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . 2–11

            Section 5(a)(2) – Recommendations with Respect to Significant
            Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2–11

            Section 5(a)(3) – Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

            Section 5(a)(4) – Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

            Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where
            Information Was Refused. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

            Section 5(a)(6) – List of OIG Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

            Section 5(a)(7) – Summary of Each Particularly Significant Report. . . . . . . . . . . . . . . . . . . . . . . . . . 2–11

            Section 5(a)(8) – Statistical Tables on Management Decisions on Questioned Costs . . . . . . . . . . . . . 26

            Section 5(a)(9) – Statistical Tables on Management Decisions on
            Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

            Section 5(a)(10) – Summary of OIG Reports Issued Before the Commencement of the
            Reporting Period for Which No Management Decision Has Been Made . . . . . . . . . . . . . . . . . . . . . . . . 50

            Section 5(a)(11) – Description and Explanation for Any Significant
            Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

            Section 5(a)(12) – Information on Any Significant Management
            Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

         Senate Report No. 96-829

            Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

         National Defense Authorization Acts

            Public Law 104-106, 5 U.S.C. app. 3, § 5 note . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

            Public Law 110-181 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

         Dodd-Frank Wall Street Reform Act

            Peer Review Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51


       52 Semiannual Report to the Congress
12497-03_SAR-Apdx_rev7.qxd       5/5/11    1:30 PM     Page 53




                                      Appendix VIII–OIG Offices and Key Officials



            Office of the Inspector General
            Inspector General, Brian D. Miller (J) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0450
            Deputy Inspector General, Robert C. Erickson (JD) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0450
            Director of Communications and Congressional Affairs, Dave Farley (JX) . . . . . . . . . . . . . . (202) 219-1062

            Office of Counsel to the Inspector General
            Counsel to the IG, Richard Levi (JC) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1932

            Office of Evaluation & Analysis
            Acting Director, Patricia D. Sheehan (JE) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 273-4989
            Office of Forensic Auditing, Director Patricia D. Sheehan (JEF) . . . . . . . . . . . . . . . . . . . . . . (202) 273-4989

            Office of Audits
            Assistant IG for Auditing, Theodore R. Stehney (JA). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0374
            Principal Deputy Assistant IG for Auditing, Regina M. O’Brien (JAD) . . . . . . . . . . . . . . . . . . (202) 501-0374
            Director, Audit Planning, Policy, and Operations Staff, Lisa L. Blanchard (JAO). . . . . . . . . . (202) 501-4865
            Director, Administration and Data Systems Staff, Thomas P. Short (JAS) . . . . . . . . . . . . . . (202) 501-1366
            Director, Special Projects Office, Paul J. Malatino (JA) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 208-0021

            Deputy Assistant Inspectors General for Auditing
            Finance and Information Technology Audit Office, Carolyn Presley-Doss (JA-F) . . . . . . . . (202) 357-3620
            Real Property Audit Office, Rolando N. Goco (JA-R) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-2322
            Acquisition Programs Audit Office, Kenneth L. Crompton (JA-A) . . . . . . . . . . . . . . . . . . . . . (703) 603-0189

            Regional Inspectors General for Auditing
            Northeast and Caribbean Field Office, Steven D. Jurysta (JA-2) . . . . . . . . . . . . . . . . . . . . . (212) 264-8620
            Mid-Atlantic Field Office, James M. Corcoran (JA-3). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (215) 446-4840
            Southeast Sunbelt Field Office, James D. Duerre (JA-4) . . . . . . . . . . . . . . . . . . . . . . . . . . . (404) 331-5125
            Great Lakes Field Office, Adam R. Gooch (JA-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (312) 353-7781
            The Heartland Field Office, John F. Walsh (JA-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (816) 926-7052
            Greater Southwest Field Office, Rodney J. Hansen (JA-7) . . . . . . . . . . . . . . . . . . . . . . . . . . (817) 978-2571
            Pacific Rim Field Office, James P. Hayes (JA-9). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (415) 522-2744




                                                                                                                October 1, 2010 – March 31, 2011 53
12497-03_SAR-Apdx_rev7.qxd       5/5/11    1:30 PM     Page 54




                                   Appendix VIII–OIG Offices and Key Officials



         Office of Investigations
         Assistant IG for Investigations, Geoffrey Cherrington (JI) . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1397
         Deputy Assistant IG for Investigations, Lee Quintyne (JID). . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1397
         Director, Investigations Operations Division, Gerald R. Garren (JIB) . . . . . . . . . . . . . . . . . . (202) 501-4583

         Special Agents in Charge (SAC)
         Mid-Atlantic Regional Office, SAC Christopher P. Cherry (JI-W). . . . . . . . . . . . . . . . . . . . . . (202) 252-0008
         Philadelphia Regional Office, SAC James E. Adams (JI-3). . . . . . . . . . . . . . . . . . . . . . . . . . (215) 861-3550
         Northeast and Caribbean Regional Office, SAC James E. Adams (JI-2) . . . . . . . . . . . . . . . (215) 861-3550
         Boston Regional Office, SAC Luis A. Hernandez (JI-1). . . . . . . . . . . . . . . . . . . . . . . . . . . . . (617) 565-6820
         Southeast Regional Office, SAC James Taylor (JI-4) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (404) 331-3084
         Ft. Lauderdale Resident Office, SA Dietrich Bohmer (JI-4M) . . . . . . . . . . . . . . . . . . . . . . . . (954) 356-6993
         Central Regional Office, SAC Stuart G. Berman (JI-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (312) 353-7779
         Mid-West Regional Office, SAC John F. Kolze (JI-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (816) 926-7214
         Denver Resident Office, SA Christopher C. Hamblen (JI-8) . . . . . . . . . . . . . . . . . . . . . . . . . (303) 236-5072
         Southwest Regional Office, SAC Paul W. Walton (JI-7) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (817) 978-2589
         Western Regional Office, SAC Bryan D. Denny (JI-9). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (415) 522-2755
         Laguna Niguel Resident Office, SA Theresa Quellhorst (JI-9L) . . . . . . . . . . . . . . . . . . . . . . (949) 360-2214
         Northwest Regional Office, SAC Terry J. Pfeifer (JI-10) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (253) 931-7654

         Office of Administration
         Assistant IG for Administration, Larry Lee Gregg (JP). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 219-1041
         Deputy Assistant IG for Administration, Stephanie Burgoyne (JP) . . . . . . . . . . . . . . . . . . . . (202) 273-5006
         Budget and Financial Management Division,
          Director Stephanie Burgoyne (JP) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 273-5006
         Human Capital Officer, Jack Mossop (JPE) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0821
         Human Resources Division, Director Denise McGann (JPH) . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1734
         Information Technology Division, Director Rickey Eaton (JPM) . . . . . . . . . . . . . . . . . . . . . . (703) 603-2323
         Facilities Branch, Supervisor Carol Mulvaney (JPF) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-3119
         Contracts Branch, Team Leader Myra R. Hayes (JPC). . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-2887




       54 Semiannual Report to the Congress
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 55




                                                          Notes




                                                                  October 1, 2010 – March 31, 2011 55
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 56




                                                          Notes




       56 Semiannual Report to the Congress
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 57




                                                          Notes




                                                                  October 1, 2010 – March 31, 2011 57
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 58




                                                          Notes




       58 Semiannual Report to the Congress
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 59




                                                          Notes




                                                                  October 1, 2010 – March 31, 2011 59
12497-03_SAR-Apdx_rev7.qxd   5/5/11   1:30 PM   Page 60




                                                          Notes




       60 Semiannual Report to the Congress
12497-00_Covers_rev7.qxd   5/5/11   10:01 AM   Page C3




                              Make
                              like
                              it’s
                              your
                              money!
                              It is.
                              To report suspected waste, fraud, abuse, or
                              mismanagement in GSA, call your


                              Inspector General’s Hotline
                              Toll-free 1-800-424-5210
                              Washington, DC metropolitan area
                              (202) 501-1780

                              or write: GSA, IG, Hotline Officer
                                        Washington, DC 20405

                              or access the Web: www.gsaig.gov/hotline.htm

                              Office of Inspector General
                              U.S. General Services Administration
12497-00_Covers_rev7.qxd   5/5/11   10:01 AM    Page C4




         Office of Inspector General
         U.S. General Services Administration
         1800 F Street, NW
         Washington, DC 20405
         http://www.gsaig.gov
